<html>
<title> - THE POLITICAL FUTURES OF INDONESIA AND EAST TIMOR</title>
<body><pre>[Joint House and Senate Hearing, 106 Congress]
[From the U.S. Government Printing Office]



 
           THE POLITICAL FUTURES OF INDONESIA AND EAST TIMOR

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON ASIA AND THE PACIFIC

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                                AND THE

             SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS

                                 OF THE

                              COMMITTEE ON
                           FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   ON

                               __________

                           SEPTEMBER 9, 1999
                               __________

                           Serial No. 106-68
                               __________

    Printed for the use of the Committee on International Relations


                                <snowflake>


                      U.S. GOVERNMENT PRINTING OFFICE
 61-319 CC                   WASHINGTON : 2000
------------------------------------------------------------------------------
                   For sale by the U.S. Government Printing Office
 Superintendent of Documents, Congressional Sales Office, Washington, DC 20402



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                  Subcommittee on Asia and the Pacific

                   DOUG BEREUTER, Nebraska, Chairman
JAMES A. LEACH, Iowa                 TOM LANTOS, California
DANA ROHRABACHER, California         HOWARD L. BERMAN, California
PETER T. KING, New York              ENI F.H. FALEOMAVAEGA, American 
MARSHALL ``MARK'' SANFORD, South         Samoa
    Carolina                         MATTHEW G. MARTINEZ, California
MATT SALMON, Arizona                 SHERROD BROWN, Ohio
JOHN McHUGH, New York                ROBERT WEXLER, Florida
RICHARD BURR, North Carolina         JIM DAVIS, Florida
PAUL GILLMOR, Ohio                   EARL POMEROY, North Dakota
DONALD A. MANZULLO, Illinois         GARY L. ACKERMAN, New York
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
JOHN COOKSEY, Louisiana
                Mike Ennis, Subcommittee Staff Director
         Dr. Robert King, Democratic Professional Staff Member
                         Matt Reynolds, Counsel
                  Alicia A. O'Donnell, Staff Associate



                            C O N T E N T S

                              ----------                              

                               WITNESSES

                                                                   Page

The Honorable Thomas R. Pickering, Undersecretary for Political 
  Affairs, U.S. Department of State..............................    08
Ambassador Paul Wolfowitz, Dean, School of Advanced International 
  Studies, Johns Hopkins University..............................    31
Dr. Donald K. Emmerson, Senior Fellow, Asia/Pacific Research 
  Center, Stanford University....................................    36
Ms. Sidney Jones, Executive Director, Asia Division, Human Rights 
  Watch..........................................................    40

                                APPENDIX

The Honorable Craig Thomas, a U.S. Senator from Wyoming..........    54
The Honorable Doug Bereuter, a Representative in Congress from 
  Nebraska.......................................................    55
The Honorable Benjamin Gilman, a Representative in Congress from 
  New York.......................................................    59
The Honorable John Kerry, a U.S. Senator from Massachusetts......    61
The Honorable Alcee Hastings, a Representative in Congress from 
  Florida........................................................    63
The Honorable Eni Faleomavaega, a Delegate in Congress from 
  America Samoa..................................................    65
The Honorable Tomas R. Pickering, Undersecretary for Political 
  Affairs, U.S. Department of State..............................    68
Dr. Donald K. Emmerson, Senior Fellow, Asia/Pacific Research 
  Center, Stanford University....................................    77
Ms. Sidney Jones, Executive Director, Asia Division, Human Rights 
  Watch..........................................................    82



           THE POLITICAL FUTURES OF INDONESIA AND EAST TIMOR

                              ----------                              


                      Thursday, September 9, 1999

                  House of Representatives,
              Subcommittee on Asia and the Pacific,
                      Committee on International Relations,
                  Jointly with U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                   Washington, D.C.
    The Subcommittees met, pursuant to call, at 2:05 p.m., in 
room 2172, Rayburn House Office Building, Hon. Doug Bereuter 
[Chairman of the Subcommittee on Asia and the Pacific] 
presiding.
    Mr. Bereuter. The joint Subcommittee hearing will come to 
order. Ordinarily, we would like to wait for our first witness, 
but because there has been a vote called in the Senate, I am 
going to defer to former House Member, Senator Craig Thomas, 
who chairs the East Asian and Pacific Affairs Subcommittee, so 
he can make an opening statement. Thank you, Senator Thomas for 
co-chairing this hearing. The gentleman from Wyoming is 
recognized.
    Senator Thomas. My pleasure. Thank you very much for having 
this hearing and including us in it.
    There is a present crisis in East Timor. I will keep my 
statement brief so we can get on with the witnesses. This is 
apparently only the second time in about 15 years the 
Subcommittees of the House and Senate Foreign Relations have 
held a joint hearing. In fact, the joint hearing was on China 
in 1996. And so I believe that sort of underscores the 
seriousness that we both take at the current situation.
    Indonesia is one of the most important and, regrettably, 
overlooked countries in Southeast Asia. The world's fourth 
largest country, Indonesia is the keystone in the regional 
stability and a guiding force in ASEAN's growing importance. 
Despite tremendous internal economic difficulties, the country 
has undertaken some admirable series of political reforms which 
has culminated in the first democratic election in 40 years.
    On the topic of East Timor, the government has taken a big 
step by allowing a plebiscite with the possible outcome of East 
Timor becoming independent. I have generally been a supporter 
of Indonesia as Chairman of the Subcommittee, have tried to 
recognize not just its shortcomings as some do, but its 
accomplishments as well, but the crisis in Timor threatens to 
put all that Indonesia has achieved in jeopardy.
    To avoid that outcome, the Indonesian government needs to 
act and act now, forcefully, decisively, and unequivocally, to 
quell the violence in East Timor. The Indonesian military needs 
to make it absolutely clear that it is not condoning or 
assisting the militias, explicitly or implicitly, and move 
quickly to restore order. Then both the government and the 
military need to move forward with implementing the outcome of 
the recent plebiscite.
    I believe that Indonesia has the ability to do this. The 
question is whether it has the will. If it does not act and 
soon, then it may be necessary to pursue measures in Congress 
and the U.N. aimed at causing Indonesia to live up to its 
responsibilities. I would support some form of international 
peacekeeping force if Indonesia does not act. I do not believe, 
however, that the United States should be prominently involved 
as we already are shouldering a number of peacekeeping burdens 
throughout the globe. We do not need to add East Timor to this 
list.
    Thank you, Mr. Chairman. I have to run, but I shall return 
because I am interested in your panel.
    Mr. Bereuter. Thank you very much, Senator Thomas.
    [The prepared statement of Senator Thomas appears in the 
appendix.]
    Mr. Bereuter. The Subcommittee on Asia and the Pacific, as 
noted, meets with the Subcommittee on East Asian and Pacific 
Affairs of the Senate Foreign Relations Committee today to 
receive testimony on the political futures of Indonesia and 
East Timor in the aftermath of the vote for independence by an 
overwhelming majority of East Timorese. As mentioned by our 
colleague Senator Thomas, it is uncommon for us to hold joint 
hearings between the two Houses, but these are uncommon times 
in Indonesia, to say the least.
    I want to welcome our Senators on their return from their 
vote.
    In the wake of the vote in East Timor, both Indonesia and 
East Timor face a future filled with portent. For Indonesia, 
the referendum comes at a time of very sensitive political 
maneuvering and fragile economic recovery. When the 
Subcommittee last held hearings on Indonesia on May 12, 1999, 
we were anxiously awaiting the June 7 national election. 
Despite some violence, a very slow vote count, and a limited 
amount of election irregularities, that election was, 
nonetheless, judged by the international community to be a 
success. It buoyed optimism about Indonesia's ability to 
overcome its profound political and economic crises.
    However, this election also created new complexities. No 
one party achieved a majority, and, in fact, the opposition 
PDIP, led by Megawati Sukarnoputri, won a plurality of the 
vote. Therefore, for the first time in modern Indonesian 
history, political coalitions will need to be formed to elect a 
new president, to form a new government, to carry out further 
economic and political reforms, to address the subject of 
rescinding the 1976 law which integrated East Timor into 
Indonesia as its 27th province, and to address separatist 
sentiments in other parts of Indonesia such as Aceh. Indeed, 
this is a new experience for these relatively immature 
political forces. How they carry out their responsibilities 
will determine how legitimate the new government will be viewed 
in the eyes of the Indonesian public and of the international 
community.
    Of course, the most obvious and immediate test is the 
crisis in East Timor. After years of Indonesian intransigence, 
President Habibie took bold steps toward resolving this 
longstanding problem. In January, he seemingly brushed aside 
the reservations of the military and surprised the world by 
offering the people of East Timor an opportunity to determine 
their own future through the ballot box. Many of us were 
encouraged by this bold and positive development. There was, 
perhaps, a general sense of guarded optimism prompted by the 
assurances of President Habibie and Armed Forces Chief General 
Wiranto that Jakarta would maintain order and create an 
environment conducive for a fair and safe election. That, 
however, proved not to be a realistic assessment.
    Despite increased violence and intimidation by Indonesian 
military-supported militias in the recent East Timorese 
elections, a record 98.6 percent of registered voters turned 
out to vote, with 78 percent of them apparently choosing 
independence. The will of the East Timorese people is clear, 
and it is overwhelming.
    It is evident by the horrific events in East Timor over the 
past week that the Indonesian government, and in particular the 
Indonesian military, has been deliberately unwilling or, 
perhaps in some cases, unable to uphold its responsibility to 
provide peace and security. I emphasize that this is 
Indonesia's responsibility. Indonesia demanded this 
responsibility from the United Nations, and the international 
community entrusted it to Indonesia. It is reported that the 
United Nations Secretary General Kofi Annan has made very 
strong representations to the Indonesian government about its 
obligations and about the negative consequences Jakarta could 
face from the international community for jeopardizing the 
integrity and the subsequent implementation of the expressed 
citizens' desires of this U.N.-sponsored election.
    While reports to date have been negative, we all should 
hope and insist that the recent imposition of martial law in 
East Timor is a sincere effort to restore order. Martial law 
should be used to disarm and disband the militias and to 
provide genuine protection to the people of East Timor. This is 
the obligation of Indonesia until the transition to 
independence is complete and the responsibility for security 
and protection of civil liberties is then transferred to the 
United Nations. Indeed, that is all the more reason for the 
United Nations not to completely withdraw from East Timor and 
thus to ensure that Indonesia fulfills its responsibilities.
    I have just returned from Australia where I participated in 
high-level discussions with the Australian Foreign Minister, 
the Defense Minister, and all of the key parliamentary leaders. 
I want to commend Australia for its willingness to take the 
lead in efforts to appropriately respond to this crisis and for 
its readiness to send military forces under U.N. auspices, if 
necessary, to East Timor. I hope that a U.N. force is not 
necessary.
    While I believe that the United States should work closely 
with her Australian allies and others to address the needs that 
they may have should the deployment of foreign forces to East 
Timor occur, I strongly believe that any effort in the Congress 
or by the Administration to deploy American ground forces in 
East Timor is extremely premature. Given the way that the 
Administration effectively bypassed Congressional involvement 
in its decisions to deploy armed forces to conflicts in Bosnia 
and Kosovo, it is incumbent on the Administration that it now 
consult closely with the Congress before it considers any acts 
to deploy any U.S. military forces in East Timor.
    Unfortunately, it appears that some political forces in 
Jakarta may be trying to manipulate this crisis to strike at 
their political opponents or enhance their political standing 
with a view toward the upcoming November presidential elections 
in the People's Consultative Assembly. It is time for the 
Indonesians to put politics aside. The continuing crisis in 
East Timor is putting the future of Indonesia and its standing 
in the international community at grave risk. They should 
understand that reality.
    While previous Congressional actions focused on East Timor 
have largely had counterproductive results--they have resulted 
in us losing overall access and leverage in Indonesia, 
particularly the Indonesian military--the U.S. nonetheless 
remains a key element in Indonesia's economic recovery 
strategy. One very important point of leverage remains, and, 
accordingly, I join many of my colleagues in warning Jakarta 
that Congressional support for pending and future IMF and World 
Bank resources to Indonesia are at grave risk unless acceptable 
order is restored in East Timor. At risk, too, is the foreign 
investment and capital that Indonesia so desperately needs for 
economic growth and recovery. The leadership in Indonesia only 
needs to look at what the world markets are saying and then to 
focus on the sharply negative drop in the value of Indonesia's 
currency. That should tell the leadership to properly restore 
order in East Timor now.
    While the tragedy in East Timor has dominated the headlines 
and directly affects Indonesia's international credibility and 
status, we cannot let it be the only factor influencing our 
policy toward Indonesia. Since President Suharto resigned 16 
months ago, Indonesia has taken large strides toward the 
establishment of a more open and more genuinely democratic 
political system. The importance of this development is not as 
widely appreciated as it should be in the United States, for, 
among our citizens, it is the least well-known large nation. I 
could go into some detail about its importance in the region, 
its size, and its previous positive actions in the region, but 
I think my colleagues are well aware of those contributions.
    I am pleased today that we will have the opportunity to 
hear from both the Administration and a distinguished panel of 
private witnesses. Testifying for the Administration will be 
the Honorable Thomas R. Pickering, the Under Secretary of State 
for Political Affairs. It should be noted that Ambassador 
Pickering is presently serving as acting Secretary of State in 
Secretary Albright's absence. Ambassador Pickering has a very 
long and distinguished career in the Foreign Service, as all of 
you know in great detail.
    We are honored to have an excellent second panel of 
distinguished witnesses, Ambassador Paul Wolfowitz, presently 
Dean of the School of Advanced International Studies at Johns 
Hopkins University, and formerly Ambassador to Indonesia.
    Dr. Donald Emmerson is a senior fellow at Stanford 
University's Asia/Pacific Research Center and a University of 
Wisconsin-Madison Professor of Political Science and Southeast 
Asian studies. He just returned from East Timor, having been 
there to monitor last week's election with the Carter Center.
    Finally, we welcome Ms. Sidney Jones, the Executive 
Director of the Asia Division of Human Rights Watch. Ms. Jones 
is a longtime observer of Indonesia, and her insights are 
invaluable.
    I did think I should first set the atmosphere here and next 
to turn to my colleague, Tom Lantos, the Ranking Member of the 
Asia and Pacific Subcommittee, and then to the Chairman of the 
Full Committee Mr. Gilman for statements that they might like 
to have. Then, I hope that we can proceed, Ambassador 
Pickering.
    [The prepared statement of Mr. Bereuter appears in the 
appendix.]
    Mr. Bereuter. Mr. Lantos.
    Mr. Lantos. Thank you very much, Mr. Chairman. I want to 
commend you both for calling this hearing and for the exemplary 
manner in which you have Chaired this Committee on Asia.
    I would like to begin my observations in what I think will 
be a somewhat surprising manner. Whenever we don't deal with 
human rights issues when they first emerge, later on we will be 
forced to deal with them under far less favorable and far more 
serious circumstances. When we of the Congressional Human 
Rights Caucus initially dealt with Kosovo, nobody knew the name 
Kosovo, but we have come to learn the name Kosovo at an 
enormous cost in treasure and in human life.
    May I say that there is a parallel between the lack of 
interest in the Congress in Kosovo 15 years ago and the 
preoccupation with Kosovo in the last year and the lack of 
interest in East Timor in years gone by and the sudden interest 
today. It was the Congressional Human Rights Caucus which held 
the first hearing on the persecution of the East Timorese, and 
I suspect that if we could arouse early interest on the part of 
our colleagues across the spectrum in dealing with human rights 
outrages in the early stages, we will not be confronted with 
these crises.
    Now, what about this crisis? This crisis, Mr. Chairman, is 
of Indonesia's making. I hold the Government of Indonesia fully 
responsible for precipitating this crisis, and I hold Indonesia 
fully responsible for the outrage which is unfolding as we 
meet. It is perfectly clear that the Indonesian military has 
the resources to put an end to the rampaging militias overnight 
if they choose to do so, and I think they need to be put on 
notice that it is their responsibility, and if they don't act 
promptly, there will be long-term and devastating consequences. 
It is their responsibility to see to it that the bloodshed, the 
looting, the pillaging, the burning, the gangsterlike behavior 
must come to an end. The top military leader, Mr. Wiranto, has 
the capability of bringing this crisis to an end overnight. I 
call on him to do so.
    Mr. Chairman, our Administration has been exemplary in its 
attempt to advise President Habibie, the military, and others 
that they need to prevent this outrage from unfolding. It is 
simply not true, as some claim, that we have not cautioned the 
Government of Indonesia to prevent what was a predictable 
outburst of violent behavior.
    You mentioned that 98.6 percent of the people of East Timor 
voted, and this is a tremendous tribute because they were under 
horrendous pressure and intimidation and physical assault not 
to participate in the election. And 78.5 percent of them voted 
in favor of independence. A more ringing endorsement for 
independence you could never get. Yet the militia, supported by 
some elements of the Indonesian military, the official 
military, is now attempting to undo the results of a relatively 
free and open election, and I underscore relatively, because 
the people of East Timor were intimidated and harassed.
    I think it is absolutely critical that the community of 
civilized nations insist that the results of this election 
remain. They cannot be undone by violence on the part of the 
militias and segments of the military. I think it is equally 
important that humanitarian organizations, non-governmental 
organizations, intergovernmental organizations have immediate 
access so they can conduct their humanitarian work in East 
Timor.
    I think it is extremely critical, Mr. Chairman, that the 
Indonesian government take full responsibility for restoring 
order. If, in fact, we should need an international force, I 
want to pay tribute to Australia for its forthcoming stand on 
this matter, and I think we should, in fact, give full support 
to an international force under U.N. auspices.
    I also believe that we need to recognize that the 
overwhelming bulk of the Indonesian people are not responsible 
for this outrage, and I think at this stage to advocate 
terminating aid that help the most needy, the poorest, the 
destitute who have suffered so much in Indonesia would be a 
mistake. There was no social safety net in Indonesia when the 
Asian economic collapse came, and I want to pay tribute to both 
the U.N. and the World Bank for moving in an effective way of 
providing some kind of a safety net. So however well-
intentioned calls are for immediately terminating all 
assistance to Indonesia, I think saner heads will have to 
prevail. We don't want to punish destitute people in Java and 
Sumatra for the outrages of the militia in East Timor. We need 
to deal differently with structural long-term aid. We need to 
deal differently with IMF funding. But I think the humanitarian 
assistance on which millions of Indonesians outside of Timor 
are depending for their daily survival must be continued.
    I look forward to hearing from Secretary Pickering. I want 
to commend you again for holding this hearing.
    Mr. Bereuter. Mr. Lantos, I thank you very much for your 
strong statement. We may have some minor points of discussion 
on how we use any leverage we have with the IMF, but I think as 
usual, and not surprisingly, we should be able to approach this 
in a strong bipartisan fashion.
    I would like now to call upon the Chairman of the Full 
Committee and then, as a matter of equity, upon Mr. Gejdenson, 
the Ranking Member of the Full Committee.
    Mr. Bereuter. Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman. I want to thank 
Chairman Bereuter for holding this very timely hearing today at 
this appropriate time. I want to welcome our Senate colleagues 
who are here from the Senate Foreign Relations Committee. We 
welcome you to the House, and we welcome you to our Committee.
    All of us are very troubled by the deteriorating situation 
in East Timor. I am troubled by the Administration's response 
to this situation. I hope that Secretary Pickering who is here 
with us today will be able to supply answers to some of the 
questions that we have.
    It appears that we are abrogating our Nation's leadership 
in Southeast Asia, and I am greatly concerned by that prospect. 
Some questions that I hope our witnesses can answer will be, 
how is the so-called ``Clinton Doctrine'' going to be applied 
to East Timor, and has our Nation ruled out the use of American 
troops in a peacekeeping force? Is there a double standard for 
Europe and the rest of the world? And why is the Administration 
not taking a more leading role in resolving this crisis which 
occurs in a region of the world enormously significant to our 
national security interests--a nation that has the fourth 
largest population in the world? And why is the Administration 
not calling for an immediate review of current international 
financial assistance to Indonesia? And why hasn't the 
Administration called for the immediate cessation of bilateral 
military assistance to Indonesia? Hopefully our witnesses today 
can help provide some answers to these questions.
    Our Nation should coordinate its approach to the East Timor 
crisis with our allies in the region. It is inappropriate to 
limit American options at this point, particularly economic 
sanctions and American participation in peacekeeping 
operations. The Government of Indonesia should be convinced to 
shoulder its responsibilities in this crisis.
    What is happening in East Timor today is nothing short of 
ethnic cleansing. The scorched earth policy of these marauding 
gangs must be stopped and stopped quickly. Genocide and the 
specter of civil war loom. The Indonesian government must act 
quickly to restore order to the island and end another tragic 
episode in East Timor's history. There could be grave 
consequences for Indonesia's relations with our Nation and the 
international community if the appropriate steps are not 
undertaken to control renegade police militias and the armed 
forces. As a last resort, the international community should be 
prepared to assist in the restoration of order to stop this 
kind of senseless violence against the East Timorese.
    Patience with Jakarta's promises is wearing thin. I call 
upon the Government of Indonesia to abide by its commitment to 
respect the results of the referendum and the rights of the 
East Timorese to a peaceful transition to independence. And 
when the situation stabilizes, I am going to urge the 
Administration to provide ample humanitarian assistance to the 
long-suffering people of East Timor. President Clinton should 
not limit American policy options. It only diminishes our 
ability to lead. East Timor may be a small island in Southeast 
Asia, but the United States does have a moral imperative to 
prevent another genocide in this strategically important part 
of the world.
    Mr. Chairman, I understand you will be taking the lead in 
crafting legislation to deal with this crisis, and I look 
forward to working with you on that. I look forward to the 
testimony of Secretary Pickering and the other distinguished 
panelists who are here today. Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Chairman Gilman.
    [The prepared questions referred to appear in the 
appendix.]
    Mr. Bereuter. The Chair now recognizes the gentleman from 
Connecticut, Mr. Gejdenson, the Ranking Member of the Full 
Committee.
    Mr. Gejdenson. Thank you, Mr. Chairman. I join with my 
colleagues, and I know I join with the Administration, in 
urging the Indonesian government to act swiftly. I know, 
contrary to the implication of today's Washington Post story, 
my conversation with Mr. Berger yesterday evening indicated 
that he and the Administration were pressing the Indonesians, 
both the government, military and nonmilitary there, to take 
every and immediate action to bring this violence to an end. It 
will endanger Indonesia's economic recovery and political 
reintegration into the world community if this situation isn't 
resolved immediately. I certainly, again, unlike the story in 
the Washington Post, in my conversation yesterday with Mr. 
Berger, got the indication Mr. Berger felt that it was 
imperative that the Indonesians immediately take this action 
and that the world community needs to respond as quickly as 
possible. I think we have a unanimimity of opinion here that is 
seldom seen in Washington about the situation in East Timor.
    I am glad to see Mr. Pickering here to express the 
Administration's opinion today.
    Mr. Bereuter. I thank you, Mr. Gejdenson.
    Mr. Bereuter. All Members' opening statements will be made 
a part of the record without objection.
    I want to recognize Senator Thomas' statement began this 
session. He has returned for a vote. We have been joined by 
Senator Chuck Hagel of Nebraska and Senator Paul Wellstone of 
Minnesota. Congressmen Brian Bilbray has also joined us. He not 
a Member of the Committee but has important knowledge and 
personal interest in the area. We welcome all of you gentlemen 
to this joint hearing.
    Mr. Bereuter. Ambassador Pickering, you may proceed as you 
wish.

  STATEMENT OF HON. THOMAS R. PICKERING, UNDER SECRETARY FOR 
          POLITICAL AFFAIRS, U.S. DEPARTMENT OF STATE

    Mr. Pickering. Mr. Chairman, Senators, Members of the 
House, thank you very much for receiving me today and for 
holding this unusual joint hearing to discuss Indonesia and the 
disturbing developments in East Timor. I want to apologize for 
being a few minutes late. Apparently this and other hearings 
are very popular today, and getting into the building is 
somewhat slower than normal.
    I come before you under grave circumstances with the fate 
of the territory of East Timor still very much in question. The 
devastating events of the past few days in East Timor compel us 
to begin today with that very important subject. Because of the 
complexity of this problem, I ask your indulgence in allowing 
me to make a full statement.
    Before turning to the specifics of what is happening on the 
ground, I think it is important for all of us to put East Timor 
in perspective by reminding everyone of where this crisis is 
taking place. East Timor, as you know, occupies half of an 
island in the vast Archipelago of Indonesia at the eastern 
extremity. Indonesia, as we all know, is the world's fourth 
most populous nation and home to the world's largest Muslim 
population. It is resource-rich, spans some of the most 
strategic waterways in the world, and plays a significant key 
role in political and economic stability in Southeast Asia, a 
region in which the United States has great economic and 
strategic interests. What happens to Indonesia thus matters to 
the region, and it matters to the United States.
    This, Mr. Chairman, makes the current crisis in East Timor 
doubly troubling, for it is clear that Indonesia's handling of 
East Timor will have an enormous impact on its ability to 
maintain cooperative relations with the international 
community. But Indonesia's future is solely in its own hands 
right now. This is a crisis of its making, and only Indonesia 
can decide to do the right things right now.
    With that as my preface, let me turn to the events of the 
past week and a half. As is known to the Members of these 
Subcommittees and indeed to the whole world, hundreds of 
thousands of East Timorese defied months of intimidation by 
military-backed armed prointegration militias to express their 
opinion on East Timor's future status in the United Nations-
administered election on August 30. Over 78 percent of the 
voters rejected Jakarta's autonomy plan in favor of a future 
independent of Indonesian rule. While the balloting took place 
without major incident, prointegration militias fomented 
violence before the vote and reacted even more violently almost 
immediately after the voting ended.
    The situation deteriorated further after the results were 
announced on September 3, with militia groups targeting 
foreigners, including journalists, for intimidation, leading 
most of them to flee the island. They also forced thousands of 
people from their homes or places of refuge, trucking them off 
to locations and fates still unknown, a very worrying 
development for all of us.
    The militias have attacked concentrations of internally 
displaced persons and set siege to the homes and offices of 
prominent community leaders, burning down the home of Nobel 
Laureate Bishop Belo. They are now attempting to drive out the 
remainder of the United Nations Mission in East Timor, UNAMET, 
as well as Australian diplomats and representatives of 
nongovernmental organizations present in the island. As these 
appalling events have unfolded, the Indonesian military, the 
TNI, formerly ABRI, and the police appear to have either stood 
by or indeed supported the militias.
    Through successive stages of the consultation process in 
East Timor, initial deployment and preparations, registration, 
the campaign period and the vote itself, the Government of 
Indonesia has been increasingly unwilling, and perhaps in some 
cases unable, to live up to the commitments it made under the 
May 5 agreements with the United Nations and with Portugal. In 
those agreements, the Indonesians clearly assumed 
responsibility for maintaining security in the territory and 
for the United Nations Mission. Despite these agreements and 
subsequent assurances from Indonesia, Indonesian authorities 
have never firmly controlled the militias and established 
security in East Timor. Moreover, it is now well-established 
that elements of the military have backed, encouraged and 
perhaps even directed some of the barbaric militia activities.
    President Habibie's declaration of a military emergency in 
East Timor on September 6 has not really improved the 
situation. Defense Minister General Wiranto has sent additional 
troops to East Timor, but these reinforcements have failed to 
rein in the militia despite the fact that the militias are a 
far inferior force.
    The United States has frequently and forcefully expressed 
its grave concerns about rampant militia activity and 
repeatedly urged the Indonesian government at all levels to 
fulfill its security obligations. The public record is clear 
and voluminous. Our diplomatic efforts have been equally 
aggressive. President Clinton has communicated American 
concerns directly and personally to President Habibie. He has 
conferred with the leaders of Australia, Portugal and other 
countries. He has talked to the Secretary General of the United 
Nations. Secretary Albright has conveyed our views to President 
Habibie and to Foreign Minister Alatas in several telephone 
conversations and in face-to-face meetings. She has also spoken 
directly to General Wiranto. Secretary Cohen has sent two 
letters to General Wiranto about East Timor. Stanley Roth, 
Assistant Secretary of State for East Asian and Pacific 
Affairs, and our Ambassador in Jakarta, Stapleton Roy, have 
repeatedly and insistently delivered the same unambiguous 
messages to all senior Indonesian leaders. Both General 
Shelton, Chairman of the Joint Chiefs of Staff, and Vice 
Chairman General Ralston have telephoned General Wiranto 
several times over the course of this crisis. Admiral Blair, 
Commander in Chief of the Pacific Area Command, who questioned 
General Wiranto about the situation in East Timor on his 
initial visit to Indonesia, just met with Wiranto earlier this 
morning to make clear the severe consequences of Indonesia's 
failure in East Timor in terms of its relations with the 
international community and particularly the United States. The 
United States has worked in the U.N. Security Council as well, 
and with the Secretary General of the United Nations, and the 
United States is supporting an early meeting of that body to 
discuss the evolving situation.
    Despite all of these efforts, East Timor is still a 
territory under siege.
    The United States calls for an immediate stop to the 
killing and destruction in East Timor. The Government of 
Indonesia has had ample opportunity and the capability to 
achieve this. The time has clearly come for Indonesia to invite 
international assistance to restore peace and stability to the 
territory. A number of concerned countries have expressed 
willingness to participate in a multinational force under 
United Nations auspices authorized by the U.N. Security 
Council. Such a force would protect the remaining United 
Nations presence, create conditions for return of the full 
United Nations Mission, and provide security for the United 
Nations to carry out its mandate to implement the clear results 
of the consultation, as the referendum is known. United Nations 
Secretary General Annan first proposed this option to President 
Habibie earlier this week.
    We welcome and are grateful for the leadership role played 
by the Government of Australia, which shares our perspectives 
and concerns about the situation in East Timor and Indonesia. 
Our Australian allies have requested that we consider 
assistance to a multinational force, and we are indeed prepared 
to help. While the President has made no decisions as to what 
kind of support the U.S. would be willing to provide, any 
decision would be made in close consultation with you, the 
Members of the Congress. The nature of U.S. participation under 
current discussion was how we could bring our special 
capabilities to bear in providing material support. Among other 
issues, we have been discussing with our friends and allies 
logistical support, lift, planning, communications and other 
areas where we bring significant capacities to the table. 
However, I must emphasize that our discussions are preliminary 
and subject to consultation here.
    Again, let me reiterate that we are prepared to support 
such an effort in a material way. You might ask me if in a 
material way I mean would Americans be present on the ground to 
carry out such tasks as the President might agree to. My answer 
to that would be yes.
    We have made no decisions now, but we expect to work 
closely with you in the Congress as this process unfolds. While 
we are prepared to contribute to this mission, to date the 
Indonesians are still unwilling to accept international 
assistance. Meanwhile, conditions on the ground, as I have just 
noted, have not measurably improved.
    To demonstrate our profound concern, I would like to 
announce that the United States is suspending its military-to-
military relationship with Indonesia. It would be inappropriate 
to have operational military contact given the TNI's 
culpability in this tragedy. Admiral Blair informed General 
Wiranto of this development when they met earlier this morning.
    As I said at the outset of my testimony, how the Indonesian 
government deals with the challenges of East Timor will have 
implications for the international community's ability to 
engage with Indonesia, including support for Indonesia's 
economic program. The situation in East Timor is already having 
a damaging effect on the confidence that is so necessary and 
important for economic recovery, and will have significant 
implications for the capacity of the international community, 
including the United States, to support economic reform going 
forward.
    Some in Indonesia and within the pro-integration camp in 
East Timor claim that the result of the August 30 vote is 
invalid, blaming United Nations bias and fraud for the strong 
rejection of Indonesia's autonomy plan. Let me take this 
opportunity to make two statements. First, UNAMET has carried 
out its mission with great professionalism and shown 
determination and courage under the most difficult of 
circumstances. Charges of bias and fraud are not credible given 
that the overwhelming majority voted peacefully and openly to 
separate themselves from Indonesia. This strategy of blaming 
the United Nations and crying foul is not legitimate, and it 
will not be accepted or tolerated by the international 
community.
    Second, I understand that the Governor of East Timor, 
Abilio Soares, has made recent statements to the press 
declaring his intention and that of his followers to seek to 
partition East Timor into a western and eastern half in order 
for pro-Indonesia groups to retain control of the western 
portion of East Timor. The August 30 vote has clearly 
demonstrated the will of the East Timorese people. There is no 
legal, historical or moral basis for a strategy of partition. 
Let me state categorically, this strategy is contrary to the 
plans to which Indonesia has agreed and will also not be 
tolerated by the international community.
    Indonesia is a society struggling to transform itself into 
a democratic Nation while recovering from a severe economic 
recession. The United States has a profound interest in 
assisting Indonesia to emerge from its current political and 
economic crisis as a stable, prosperous and democratic nation. 
It will be a tragedy for the Indonesian people as well as for 
the East Timorese if the East Timor situation severely 
constrains the willingness and ability of the international 
community, including the United States, to work with Indonesia. 
If Indonesia addresses the problem of East Timor in the manner 
to which it originally agreed, it will substantially enhance 
its ability to pursue effectively its economic and political 
transformation. Conversely, continued failure to respond to the 
will of the people of Timor in a process undertaken 
independently by the Government of Indonesia and strongly 
supported and financed by the international community will 
substantially impair Indonesia's relations with the 
international community and put at risk these critical 
political and economic objectives.
    Before moving on, Mr. Chairman, to Indonesia and its 
overall political situation, let me take a moment to speak 
about the special circumstances of East Timor. The United 
Nations and the International community have long recognized 
that East Timor had a unique colonial history, that a valid act 
of self-determination would have been appropriate, and that 
such an act did not take place in 1975 prior to Indonesian 
annexation. This indeed makes East Timor different not only 
from other provinces around the world, but also from other 
provinces within Indonesia. While some Indonesian officials may 
be concerned that permitting East Timor to separate could set 
off independence movements in other parts of Indonesia, we 
believe that humane and orderly management of the transition to 
East Timorese independence, in cooperation with the 
international community, could, instead, communicate clearly to 
the various ethnic groups in Indonesia a reason to have a sense 
of confidence in Indonesian leadership.
    As you well know, Mr. Chairman, Indonesia is a society that 
has been struggling to transform itself into a democratic 
nation while recovering from a severe recession. It is a key 
strategic country in the region, and the United States has a 
profound interest in helping it to emerge from this transition 
as a democratic, peace-loving and economically prosperous 
state. It is important that we not lose sight of this context.
    You will recall that after Suharto's resignation in May 
1999, the Administration of President Habibie launched 
ambitious and far-reaching steps toward a more democratic form 
of government by lifting controls on the press, political 
parties, labor unions and nongovernmental organizations. As a 
result, in a remarkably short time civil society has opened up 
in Indonesia to an unprecedented degree. While the foundations 
of systemic reforms are being set by these changes, much 
remains to be done. Entrenched institutions that reflect the 
priorities of the authoritarian past still need thorough going 
reform. These institutions include the military, police and 
judicial systems. Corruption remains an extremely serious 
concern for all of us.
    The most tangible achievement to date in this democratic 
transition was the nationwide elections for a new Indonesian 
Parliament, DPR, which were held on June 7. Over 100 million 
enthusiastic Indonesians participated. The opposition 
Indonesian Democratic Party of Megawati Sukarnoputri gained the 
greatest percentage of votes, and the ruling Golkar came in a 
distant second. Other opposition parties also attracted 
significant popular support in a fundamentally free and fair 
election. The Indonesian people gave clear expression to their 
desire for democratic change and reform. The United States 
provided more than $30 million, joining in international 
community efforts to support the June election.
    We continue to call on President Habibie and other high-
level officials to ensure that each successive step in 
Indonesia's political transition is taken in a free, fair and 
transparent manner. We have strongly encouraged further 
Indonesian reform through our assistance programs and by 
consistently stressing Indonesia's responsibilities to respect 
human rights, release political prisoners and protect the 
rights and physical security of all minorities, including those 
of ethnic Chinese Indonesians.
    The next major political step for Indonesia will occur this 
fall, probably in November, when the people's consultative 
assembly, MPR, consisting of the 462 newly elected Parliament 
Members, 38 military representatives and 200 appointed 
provincial and functional representatives, will select a new 
President and Vice President. Leading Presidential contenders 
are seeking to build coalitions and form a working 
parliamentary majority. This maneuvering is far from over. This 
MPR will not resemble the almost wholly hand-picked legislative 
bodies in the Suharto era of the past. However, with one-third 
of the incoming MPR seats either indirectly elected or 
appointed, we share the concerns of many Indonesians that the 
process of selection of these Members must be transparent and 
that their actions be considered legitimate by the people of 
Indonesia. The process has strong implications for the future 
stability of the country. Only if the people deem the process 
of choosing the new national leader legitimate will Indonesia 
have taken another credible step toward becoming the world's 
third largest democracy.
    It is important to keep in mind that the question of East 
Timor has now become enmeshed in this larger political 
transition. According to the May 5 tripartite agreements, the 
MPR must endorse the result of the vote in East Timor before it 
can begin its U.N.-administered transition to autonomy. As 
such, various political actors are using the stage for 
political advantage. Some key figures, including Ms. Megawati, 
have made responsible statements accepting the outcome of the 
ballot on Timor, calling on the military to stop abuses on the 
ground, and expressing her willingness to work with an 
independent East Timor. We commend Ms. Megawati's principled 
and admirable stand in this respect.
    The political and economic changes of the last 16 months 
have come in an environment of increased civil disorder. 
Political pressures growing out of rising expectations, the 
economic desperation of the poor, breakdowns in law and order, 
and longstanding sectarian and ethnic tensions have all 
contributed to unrest in many parts of the nation. Popular 
reaction to military abuses in Aceh, East Timor, Irian Jaya and 
elsewhere in the country have sometimes led to violent 
protests. In the past year, the government's record of 
protecting minorities generally and in unique local situations 
has been poor. Grassroots social, ethnic and religious 
pressures exacerbated by continued economic dislocation and 
eroding respect for police authorities remain intense and 
explosive.
    The security forces, the TNI, faced with street rallies, 
demonstrations and riots, have reacted with violent suppression 
in some cases and unresponsive inaction in others. Many 
Indonesians believe that the TNI should cease to play a 
political role under Indonesia's dual function system. Morale 
has suffered. All these factors degrade the government's 
ability to maintain order.
    The causes of civil strife are various, but a significant 
influence on civil order has been the sharp decline in the 
economy. Indonesia was the Southeast Asian country hardest hit 
by the Asian financial crisis. A dramatic economic collapse 
beginning in early 1998 pushed the number of Indonesians living 
below the poverty line from 20-28 million, making food and 
other essential goods increasingly expensive for many. 
Unemployment, combined with rising inflation, dramatically 
reduced purchasing power. The United States responded to these 
crises of a humanitarian character by providing Indonesia with 
several hundred million dollars in food, humanitarian 
assistance and development aid in the last two years.
    The Indonesian government has been working with the 
International Monetary Fund on an economic reform program since 
the autumn of 1997. Indonesia's stabilization package provides 
for unprecedented accelerated structural reforms in every 
sector of the economy and major changes in the trade regime. 
Indonesia has generally complied, but more effective corporate 
and bank restructuring, which will be crucial to resumption of 
sustainable growth rates, is necessary. Corruption and the lack 
of transparency remain very significant problems for companies 
doing business in Indonesia, and the Government of Indonesia 
has stepped up efforts to address these concerns, but the 
recent Bank Bali scandal in particular has shaken confidence in 
the government's ability to make significant progress in this 
area and will clearly impact negatively IMF decisions on future 
disbursements. Indonesia's economy has been making a slow 
recovery from the depths of the crisis last year. After 
shrinking by 13 percent in 1998, GDP rose by 1.8 percent in the 
second quarter of 1999, while in August 1999, annual inflation 
fell to 5.8 percent, the lowest rate since 1997.
    The economic recovery is slow and fragile. In addition, 
Indonesia is faced with internal demands for a redistribution 
of wealth from resource extraction, a concern which is 
complicated by growing separatist sentiment in Aceh and Irian 
Jaya.
    Some make parallels between East Timor and another area of 
separatist activity, Aceh. Sumatra's oil- and gas-rich 
northernmost province is home to a long-standing separatist 
movement that has grown in size and popularity over the past 
year in reaction to past and current military abuses and the 
lack of redress over economic grievances. But unlike East 
Timor, Aceh is seen by all Indonesians and recognized by the 
international community as an integral part of the Indonesian 
state. Aceh has deep historical and cultural ties to Indonesia. 
An independent Aceh threatens the very integrity of the 
Indonesian state. The central government in Jakarta initially 
tried some conciliatory steps, but Jakarta's response has since 
been dominated by military actions which have only inflamed the 
situation. The TNI, frustrated by losses to armed separatists, 
has reportedly targeted civilians whom they claim are helping 
the insurgents and has engaged in fresh atrocities. The United 
States has pressed Jakarta to end the abuses and return to 
dialogue in order to promote a political solution.
    Several groups in the Irian Jaya province are pursuing 
independence for what they term West Papua. They argue that 
despite U.N. brokering of the process, the people of the region 
never approved its incorporation into Indonesia, and the Papuan 
people have been systematically oppressed by the Indonesians. 
There is conflict between Indonesia's people and transmigrants, 
Indonesians moved in from elsewhere in Indonesia. Over the 
years, there have been regular reports of killings and rapes of 
indigenous people in Irian's central highlands and elsewhere in 
the province. Churches and the Indonesian Human Rights 
Commission have documented these credible accounts of 
widespread human rights abuses by security authorities. Irian 
Jaya separatists, who also have economic grievances based on 
low redistribution back to the province of profits from mining 
and exploitation of other local resources, primarily press 
their case through nonviolent means.
    The United States has expressed concerns about human rights 
abuses in Irian Jaya and has urged the Habibie Administration 
to foster dialogue and negotiation. In February 1999, President 
Habibie participated in a meeting with 100 representatives of 
local civic leaders and leading Indonesian political figures in 
accordance with a terms of reference for dialogue negotiated in 
September 1998. The second dialogue meeting which was scheduled 
to be held in July has yet to take place. Indonesian security 
authorities reportedly have harassed the civil society's 
leaders from Irian Jaya who attended the February meeting. The 
government requires travel permits for journalists and 
researchers wishing to visit Irian Jaya, which has delayed 
investigation of reported human rights abuses.
    In conclusion, Mr. Chairman, Indonesia has an historic 
opportunity to transform itself into a democratic country. In 
attempting to do so, it faces manifold and significant 
difficulties. Its tragic handling of East Timor, the failure of 
the Indonesian government to make good on its commitments and 
its responsibility for the present diplomatic and humanitarian 
disaster will have far reaching consequences and most 
importantly for Indonesia itself. The Government of Indonesia 
needs to right this wrong. If they cannot do so themselves, as 
is already abundantly clear, they have a clear alternative, to 
let the United Nations through a multinational force assist 
them.
    Even if the East Timor situation can be put back on track, 
Indonesia's transformation will continue to be complicated. The 
United States hopes to remain fully engaged to help see 
Indonesia on a path to democracy, prosperity and stability. But 
the bottom line is clear. The future is now in Indonesia's own 
hands.
    Thank you, Mr. Chairman and distinguished Members of both 
Subcommittees, for allowing me to make such a lengthy 
statement. I look forward to addressing your questions.
    [The prepared statement of Mr. Pickering appears in the 
appendix.]
    Mr. Bereuter. Ambassador Pickering, thank you for your 
forthright and very important statement. I think it will help 
inform the American public about the situation in East Timor 
and about the prospects for Indonesia and American relations. 
It will also provide the basis for some possible questions and 
comments from my colleagues and, perhaps for a common policy 
response to the crisis in East Timor between the Congress and 
the Executive Branch.
    I appreciate your effort today. Chairman Thomas is involved 
in a particular amendment right now and will return as soon as 
possible. It is our intention to proceed, and it is the 
Chairman's intention to proceed under the 5 minute rule for 
questions and comments from Members of the Joint Committee. In 
a bicameral courtesy, I want to recognize first the 
distinguished gentleman from Delaware, the Ranking Member of 
the Senate Foreign Relations Committee, Senator Joseph Biden, 
first for comments and questions that he might like to make 
under the 5 minute rule.
    Senator Biden. Thank you very much, Mr. Chairman. Since we 
don't have many grazing rights in Delaware, I am able to stay. 
That is the issue we are debating right now. No cattle grazing. 
We have other kinds of grazing rights but not those. I will be 
very brief, hopefully not take the 5 minutes.
    Mr. Secretary, thank you for your testimony. I have one 
question. I have many, but I will limit it to one, and that is, 
is anyone from the Australians to anyone else, including our 
government, talking about an international force without a U.S. 
mandate and without the invitation of Jakarta--the U.N., excuse 
me, without a U.N. mandate--thank you very much--and without 
Jakarta's permission, blessing, invitation?
    Mr. Pickering. Senator Biden, to the best of my knowledge, 
none of the countries in the category that you named is now 
talking about an international force without a United Nations 
mandate or a Jakarta invitation. I happen to think that a U.N. 
mandate would not be possible today, at least without a Jakarta 
invitation.
    Senator Biden. China would veto any----
    Mr. Pickering. I believe that is a significant possibility. 
I don't want to make----
    Senator Biden. You don't want to speak for China?
    Mr. Pickering. I don't want to speak for China. I would 
like to allow them room to make their own decision. I don't 
want to put them in a box where they don't feel they belong if 
I can put it that way.
    Senator Biden. Does the Administration think there should 
be any outside force introduced if Jakarta refuses to invite an 
international force?
    Mr. Pickering. The Administration's view is that an outside 
force is necessary, as I have said. It respects the views that 
have been expressed by the principal participants in this force 
that it can't be done without an Indonesian invitation and a 
Security Council approval and we have therefore been making 
extremely serious efforts to try to obtain that. Politically we 
have cutoff assistance, as you know, today on the military 
side. We believe in effect that any future assistance from the 
international financial institutions is effectively cutoff as 
of now, will not be more forthcoming because of a number of 
factors, including some that antedate the East Timor crisis 
but, I am sure, the East Timor crisis worsens that. Our own 
bilateral assistance is being intensively reviewed. We want to 
continue at least for this period of time to be able to protect 
that assistance that goes directly to the basic human needs of 
Indonesians who will require it and protects democracy, but we 
are looking at it from that point of view to determine whether 
and, if so, how quickly any should be cutoff beyond the present 
programs.
    So I believe we are adopting a posture, if I could call it 
that way, of building maximum strength at this particular time 
in the direction that is outlined in terms of moving ahead, but 
the bulk of the countries would have to participate. If that 
doesn't work, then we will clearly have to seriously re-examine 
additional economic, political, trade sanctions and other steps 
in an effort clearly to bring that about.
    Senator Biden. Thank you very much. Thank you for your 
courtesy, Mr. Chairman.
    Mr. Bereuter. Thank you, Senator Biden. The Chair has had 
an opportunity to express his views and will wait till the end 
for questions if necessary. I turn now to the next Republican 
in attendance. The gentleman from South Carolina, Mr. Sanford, 
is recognized.
    Mr. Sanford. I thank the gentleman. I want to go back to 
what the Senator was at least touching on, and that was this 
issue of invitation from Jakarta and sanctioning if you will by 
the U.N. given the precedent that the Administration has set in 
places like Kosovo and the fact there was hardly invitation 
from Belgrade for our involvement in that part of the world, 
how can you have both policies? It seemed to me there would 
be--to the degree they are mutually exclusive, given the fact 
we were involved for humanitarian reasons in Kosovo, how could 
the Administration sit idly by in East Timor?
    Mr. Pickering. I explained, I believe, Mr. Sanford, the 
reasons why or at least the fact that other countries who would 
be principal participants in this particular effort have drawn 
a clear line.
    Mr. Sanford. That is why they have. But my question is for 
the Administration.
    Mr. Pickering. As I said clearly in my opening statement, 
we are prepared to support efforts undertaken under the 
leadership of Australia to have an international force go in 
and that we are supporting Secretary-General Annan's request to 
Prime Minister Habibie. Incidentally, it was a request which 
was originally accepted by Prime Minister Habibie that if he 
couldn't reestablish law and order in a particular short time 
and a Security Council Commission is out there reporting on 
that effect, he let it be known, we believe, to the Secretary-
General that he would invite such a group in. That is ongoing 
now. There have been other statements from Indonesia but our 
preference, our clear hope, the direction in which we are 
currently moving, all of the diplomatic efforts that we have 
made have been to move in that direction.
    Now, you raised a question of comparisons. In each one of 
these cases obviously what is practical, what is going to be 
effective on the ground, what will work, what is feasible are 
clearly measures that have to be used to judge which is the 
appropriate policy to follow and how far to pursue that and how 
to make it work.
    Mr. Sanford. I understand. But in other words, going back 
to what you just said, you said preference, the 
Administration's strong preference was to act in accordance 
with invitation of Jakarta and in accordance with the United 
Nations. What you are saying, that is a preference. If push 
came to shove, the Administration would act unilaterally?
    Mr. Pickering. I think it is very, very difficult for me to 
address hypotheticals from this particular position right now 
and I would not do it. I think that those are questions that 
are reserved for the highest level decision in the Executive 
Branch after, as I have said, full consultation with all of 
you. That process, in my view, is a viable process. It will 
give us the opportunity to be flexible if that is necessary. 
What it means, as the Chairman has just invited, I hope, is 
that we will be pursuing a bipartisan, bi-branch policy on a 
very difficult issue and at this point I am not here to rule 
things, that are beyond, frankly, where we have just come in 
the clear statement I believe I have made about where we stand.
    Mr. Sanford. One last question because I know my time is 
running short, Mr. Chairman. Some people have suggested that 
the agreement in Rambouillet was that sign this or we will bomb 
you. Could one argue that basically we are going down that same 
route again in that we are cutting off assistance, we are 
disengaging in terms of military contact? Are we increasingly 
isolating them to the point where in either come to agreement, 
sign up with the United Nations, invite us in or we are sending 
people in unilaterally?
    Mr. Pickering. I think that again that is another way of 
asking me the question that I think I just provided you a clear 
answer to and I admire your efforts to try to somehow recast 
this in a different form.
    Mr. Sanford. Fair enough.
    Mr. Pickering. What I would say, however, Mr. Sanford, and 
I think it is extremely important that we are pursuing 
diplomatic efforts, including obviously taking serious actions, 
which we have today and serious actions are clearly a part and 
parcel of the attitude of the international financial 
institutions which we are both interested in and we believe in 
fact, as we have in other crises of this sort, that it is the 
use of diplomatic and related steps to bring about the 
appropriate answer to the question which must be clearly 
explored and thoroughly used by the United States, and that is 
important. The fact that we have begun a series of diplomatic 
efforts and indeed I would say pressures, and I think Indonesia 
is isolating itself in this particular situation and we have 
warned it about isolating itself, doesn't necessarily either 
preclude or prescribe any other set of steps that might be 
taken down the road.
    Mr. Sanford. I thank you, sir.
    Mr. Bereuter. Thank you. The Chair is about to recognize 
the distinguished gentleman from California, the Ranking Member 
of the Asia and the Pacific Subcommittee and then would ask 
unanimous consent and contravention to Committee rules to 
recognize the distinguished gentleman from Massachusetts, 
Senator John Kerry, Ranking Member of the East Asian and 
Pacific Affairs Subcommittee, and, next, the gentleman from 
California, Mr. Bilbray. Then we will return to regular order. 
Hearing no objections, that will be the order. Gentleman from 
California.
    Mr. Lantos. Thank you, Mr. Chairman. First I want to 
commend Secretary Pickering for an extremely eloquent and 
powerful and to my mind extremely reasonable statement on this 
difficult issue. Since I don't have any of the constraints of 
not answering hypothetical questions, I will take it upon 
myself, speaking neither for the Administration nor for China, 
I will take it upon myself to answer my good friend's question. 
I think there is a world of difference between the Kosovo 
situation and the East Timor situation. The difference doesn't 
stem from the suffering of the individuals that are raped or 
murdered, whose homes are looted and set on fire. In that 
context, the two situations are very parallel. But there is a 
world of difference because with respect to Kosovo, we have 
NATO, the world's most powerful military alliance in human 
history, which was able for two generations to prevent the 
Soviet Union from making a move of a single millimeter anywhere 
in Europe, and finally NATO decided that it had to deal with a 
new dictator and they dealt with him effectively and 
successfully.
    Now, it is self-evident that Indonesia, the fourth most 
populous and one of the potentially wealthiest nations on the 
face of this planet, is 200 million plus people, is not a place 
where either the United States or Australia or anybody else 
will begin a war because of human rights violations. In Kosovo, 
we crossed the Rubicon. Kosovo is the first war in human 
history not waged for territory, not waged for oil, not waged 
for power, not waged for colonies, but waged for human rights. 
I for one would love to see the civilized global community have 
the power to do this everywhere but being a realist, I 
recognize that it can do it only in very few places where very 
unique circumstances prevail. That is why I so strongly support 
it, our Administration, with respect to Kosovo, and that is why 
I believe I will so strongly support the Administration in the 
unlikely event that the Indonesian government does not comply 
not to undertake military action against Indonesia, which in my 
judgment would be an absurdity. I don't think anybody in his 
right mind recommends it.
    So to answer you forthrightly and without any qualification 
and speaking not for the Administration, there will be no 
unilateral military action against Indonesia. Indonesia will 
have to invite an international presence if there is to be an 
international presence. Indonesia should take care of the 
problem itself and in the case Indonesia refuses to put an end 
to this outrage, there will be severe economic consequences 
ranging from the very measures that keep Indonesia afloat right 
now. Without the IMF Indonesia is bankrupt. Now, if this 
Indonesian government wants to make its society totally 
bankrupt economically, it can continue to allow or to acquiesce 
in or to support the outrage which is unfolding in East Timor.
    I trust that saner counsels will prevail in Jakarta, that 
the Indonesia military will put an end to this outrage, and 
they will invite an international force and the U.N. under 
those circumstances will approve such a force.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you, Mr. Lantos. Under the unanimous 
consent, the gentleman from Massachusetts, Senator Kerry, is 
recognized for 5 minutes for a statement or questions.
    Senator Kerry. Thank you very much, Mr. Chairman, and I 
thank Chairman Thomas also for calling for this joint meeting. 
And I would ask unanimous consent that my opening statement be 
placed in the record. Thank you, Mr. Chairman. 
    [The prepared statement of Hon. John F. Kerry appears in 
the appendix.]
    Senator Kerry. Mr. Secretary, thank you for taking time to 
come up here. I apologize for being late and I apologize I will 
leave a little early, but we have Sandy Berger on the other 
side on this very subject and I would like to spend a minute 
with him.
    Mr. Secretary, it is my sense that the current situation in 
East Timor may well have a great deal more to do with the 
internal politics of the Presidential election of Indonesia 
than it does specifically with just the problem of transferral 
or transition in East Timor. There seems to be a lot of 
speculation behind the scene about General Wiranto's role, the 
military's role, Ms. Megawati's role and so forth. I wonder if 
you might just shed some light. Is it wrong to assume that 
those who are waiting for an invitation to go in may be singing 
the wrong song here because of the way in which this is tied to 
the political situation with the Presidential election coming 
up and the results that the party raises?
    Mr. Pickering. Senator Kerry, I made clear in my statement 
that we believe that the electoral process is having an effect 
and indeed that East Timor may be having an effect on the 
electoral process. I would hope, however, that it not get to be 
seen as totally an adjunct to an electoral process in Indonesia 
on the one hand, or that in order to have it worked out, we 
have to wait for the end of those electoral processes on the 
other. I say this, I think, for the obvious reasons. This is an 
urgent and emergent problem and we have talked of the human 
dimensions and they are extremely serious. Second, I have 
reason at least to be in part optimistic in the information I 
provided on the attitude of a leading candidate for the 
presidency, Megawati and her willingness, which she stated very 
clearly, to see an Indonesia living alongside peacefully and 
fruitfully, an independent East Timor, and I think this is 
important.
    I do believe, however, that there are other causes and 
other actions that are also involved in this situation. There 
are Indonesians who, I think, have failed to understand the 
importance of the arrangements made with the United Nations and 
who have an iridescent view, if I could phrase it that way, of 
East Timor and its role in the future of Indonesia. Some may in 
my view be falsely addicted to the idea that Indonesia can only 
deal with its own internal problems, some of which I mentioned 
by a harsh repressive policy in East Timor and allowing in a 
sense the pro-integrationists to have freedom to overturn, 
indeed to be aided and abetted in overturning the United 
Nations result. Now, I think they are falsely misguided in this 
particular idea. I believe quite the contrary, that an ability 
to carry out its commitments to deal with security, to provide 
the opening for the transition, to allow the process to go 
ahead, to encourage the Indonesian parliament to have the 
appropriate approvals of the election results are the ways in 
which the Indonesian government can assure its own population 
that it is prepared to deal with grievances in an exemplary 
manner, to consider human rights concerns, to recognize that 
abuses and force do not solve the problem.
    Senator Kerry. I want to interrupt you for a moment because 
the light is about to go on and I just wanted to just ask you a 
follow-up question to that. Assuming all of that doesn't 
happen, there seems to be no stomach for anybody to go in 
without an invitation. Therefore, what is plan B if these 
political machinations don't permit the request? What is plan 
B?
    Mr. Pickering. Plan B, I think, is quite clear and I 
addressed the elements of plan B when I spoke to Senator Biden 
when he asked this original and seemingly irrepressible 
question, that plan B is the examination which is ongoing of 
additional steps and measures to deal with the problem of 
Indonesia invitation in the area of economics, trade, 
sanctions, political relations and so on, and I believe it is 
important that we consider these. No decision has been made 
because we believe still that the remaining part of the U.N. 
process has to be played out. The team that went from the 
Security Council which is to visit East Timor on Saturday will 
come back and provide a report. We hope that they will--if they 
are going to report, and that is not certain, that Indonesia 
still is unable to meet its requirements. We will also report 
that President Habibie is prepared to carry through with what 
we understand was his statement to the Secretary-General that 
he is prepared to issue this invitation despite the fact that 
we know other Indonesians are saying quite the contrary. There 
is not a united voice in Indonesia but we look to President 
Habibie to keep this commitment that was made to allow the 
United Nations in to review the situation, to bring in a United 
Nations force to assist Indonesia in the maintenance of 
security and carrying out of their obligations under the May 5 
arrangement to respect the referendum and transform the 
territory to the independent status that it has voted for.
    Senator Kerry. Mr. Chairman, thank you very much. If I 
could just make a 30 second comment. I am not sure what that 
has to do with anything. What we're seeing there today may be a 
retribution. It may be a reaction but none of your response, it 
seems to me, deals with violence or the humanitarian problem 
per se. Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you. The Chair will next call on the 
gentleman from California, Mr. Bilbray, and then in order Mr. 
Faleomavaega, Mr. Hastings, and Mr. Davis. The gentleman from 
California.
    Mr. Bilbray. Thank you, Mr. Chairman. Mr. Secretary, I have 
got to first apologize to you. Just as there are some Members 
who come with a special insight to Eastern Europe, being the 
only Member of Congress that I know of Australian extraction, I 
come with my own prejudices on this whole issue and I have just 
got to be frank with you. After 10 years of extensive 
discussion with representatives of Australia going back to 
Prime Minister Hawke, members of parliament and just discussion 
with the premier in New South Wales this month, it has just 
given us, those of us, that have discussed with Australia that 
the United States, while it is focused on Eastern Europe 
extensively, has tended to have a blind eye when it comes down 
to the southern Pacific and especially Indonesian problems, not 
just here but Papua New Guinea and other places.
    The real thing I want to get out is that the frustration I 
have gotten from my relatives and from the discussion of 
Australia is what appears to be a mixed signal that has been 
sent to Australia and Indonesia about the human rights issues 
in the southern Pacific. Hopefully to clarify this, what is 
your interpretation of the Australian position?
    I want to just sort of pre-empt that. I find it rather 
refreshing to hear a country that says we don't want America to 
go in and do this; we just want America to back us up if we go 
in and do it. I wish we heard that from NATO more. What is your 
perception of Australia's position about placing peacekeeping 
forces in East Timor? Is your position that unless the U.N. 
makes a proclamation or Indonesia specifically requests it, 
that Australia does not want anybody to consider intervention?
    Mr. Pickering. Let me first put my cards on the table. I 
happen to have an earned degree from an Australian university 
so I join you in appreciation of the special circumstances that 
Australia faces. Second, it is my clear view and I had the 
opportunity personally to discuss this with Foreign Minister 
Downer that Australia is ready to put a force in on the basis 
of an invitation and U.N. Security Council approval. But in the 
absence of that, it is not ready to do so.
    Mr. Bilbray. Are they communicating at all that they will 
not consider under any consideration a multinational force 
intervening in East Timor without an invitation or a U.N. 
Resolution?
    Mr. Pickering. I understand plain Australian and that is 
what the Prime Minister told me.
    Mr. Bilbray. Let me just say this. Do you or does the 
Administration perceive the commitments to Australia and New 
Zealand and the South Pacific Anzac alliances, you perceive our 
alliances and commitments to that part of the world equal to 
our commitment to NATO?
    Mr. Pickering. Yes. I believe that the United States must 
meet its treaty commitments all around the world and our 
security treaty commitments with Australia are important and we 
should both live up to the letter, and I have no doubt that 
either side has any reservations about that.
    Mr. Bilbray. Do you perceive that the offer made by 
Australia may if we are successful--let's just say in a perfect 
world, that Australia is willing to take the lead in its back 
yard, only asks for the United States to be a minor logistical 
supporter. Do you perceive that this, if everything works out, 
could be the prototype, could be the model that we then try to 
initiate not just in South Pacific but also sub-Saharan Africa, 
Latin America, and the rest of the world? Do you see that maybe 
Australia is giving us a model that can lead us into the next 
millennium of our appropriate position in foreign policy not 
doing everything for everyone everywhere but being supportive 
of people taking care of their own back yards?
    Mr. Pickering. I do and I want to say that with you I feel 
very strongly about the importance of Australian leadership in 
this particular effort, and I hope that our Australian friends 
and allies feel that we are working very closely with them 
because we have been on an hourly to hourly basis on both the 
diplomacy and the military side of this effort and of course 
the President will have an opportunity to meet Prime Minister 
Howard and the Secretary Foreign Minister Downer in the coming 
two days in Auckland at the APEC meeting. I believe that we 
have never been closer and I believe that this is a model. It 
may not be the exclusive model but it is one obviously, as you 
know, we longed for in Bosnia years ago and didn't see 
produced. I think we should be very careful in having only one 
model. One size doesn't fit all always, and it is the nature of 
the task, the size of the task, the urgency of the task I think 
that helps to determine how partner states become involved and 
how effective they can be.
    In this particular instance, although he is not here, I 
join Congressman Lantos in recognizing that one of the unique 
elements of our military involvement in Kosovo was that we had 
a large number of our NATO partners with us. Ten or 11 flew 
active air combat missions and some of the others flew air 
support missions and that doesn't arrive merely by having a 
treaty. It arrives through a long process of integrating 
efforts over many years of working out ahead of time how your 
aircraft and their aircraft can be as a military say 
deconflicted in common air space, how we can operate with 
common tactics, how we can operate with common communications.
    So in these kinds of situations, I think the tougher the 
job, often the more the necessity for prior experience, prior 
training, prior planning, prior coordination, prior doctrinal 
arrangements between us.
    Mr. Bilbray. Thank you, Mr. Chairman. I just hope we send 
the message clearly. We heard about Europe, in the last two 
years. A lot of people are watching South Pacific. The 
Australians have been trying to tell us for over a decade that 
this was coming down the road. I hope America sends a clear 
message that human rights in the South Pacific or anywhere else 
in the world is just as important as human rights in Europe, 
and I think we need to make that clear, take the stand that no 
matter what the color of your skin, no matter what your ethnic 
background, no matter what part of the world you are in, human 
rights are still a valued commodity in the United States.
    Mr. Pickering. Could I make just one brief comment, Mr. 
Chairman. The implication has come in this and other questions 
that somehow we didn't know this was coming. I think quite the 
contrary. We spent a long time working on it. There were a lot 
of steps taken some time ago in order to deal with this 
possibility. It is in my view extremely important to understand 
that we have been preparing for this contingency even if in 
fact we hoped against hope that it wouldn't come and our close 
relationship with Australia did not begin a week ago on this 
particular issue. It began some time ago.
    We remain committed obviously to work with international 
partners, including close allies like Australia, on this 
particular issue as well as in the United Nations system, but I 
wanted to make that point because I think there is a growing 
sense that somehow this was something that just started a week 
and a half ago and we had just begun to address it.
    Many weeks ago we sent many of our people to participate 
with the U.N. to the maximum that the Indonesians allow to deal 
with the elections, for example.
    Mr. Bereuter. Thank you, Ambassador. I appreciate that 
perspective. I want to say that Members of this Committee have 
been very much involved and informed on this issue and have 
been attempting to inform our colleagues, some of whose actions 
occasionally are counterproductive. Unfortunately we are at 
this state today. I want to thank the gentleman from California 
for his perceptions and perspective and certainly appreciate 
the fact he took the time to join us today.
    Mr. Falomavaega, the gentleman from American Samoa, is 
recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I also want to 
thank Senator Thomas for calling this joint hearing this 
afternoon and for the Members of the Committee to raise 
questions concerning this very important issue. I certainly 
want to commend you, Mr. Secretary, for your very comprehensive 
statement concerning the crisis that we are faced with at this 
time.
    I suppose one can say that we planted the seeds and this is 
the results we have produced. I say this sincerely, Mr. 
Secretary, because the relationship that exists between the 
East Timor and Indonesia is not unique. The military of 
Indonesia simply went over and conquered these people and said 
you are now part of Indonesia. I don't consider that as a 
unique relationship. I could also say, Mr. Secretary, we cannot 
talk about East Timor and ignore West Papua New Guinea because 
this is the same thing that the Indonesian military did to 
these people.
    Now, we could talk about the tortures, the atrocities that 
were committed against 200,000 East Timorese for the past 20 
years as well as the 100,000 Melanesians that lost their lives 
are the same actions taken by the Indonesian military, and this 
is what we produce as a result.
    I take this very seriously and also associate myself with 
the comments made earlier by my good friend from California. I 
do have a little prejudice concerning this, Mr. Secretary, 
because I happen to come from this region. I am very, very 
concerned. The fact of the matter is one of the darkest pages 
of United Nations history was partly contributed to the mess 
that we are faced with now in Indonesia not only in East Timor 
but as well as West Papua New Guinea. I am very appreciative of 
the fact that you did make comments in your statement 
concerning Irian Jaya, West Papua New Guinea.
    I am not going to get into that but I do want to raise a 
question. Assuming the Security Council doesn't approve sending 
a peacekeeping force to Indonesia without Indonesia's consent, 
where do we go from here, Mr. Secretary?
    Mr. Pickering. Thank you very much. I believe that the 
answer I gave to that question before I would be glad to repeat 
for you. We go into a next stage of doing all that we can in 
partnership with the international community and the Security 
Council to bring Indonesia along with the United Nations 
process that it was originally committed to, that at the moment 
we have doubts, you and I, I am sure, about whether it remains 
committed because since it is not doing what it is supposed to 
do with respect to security, it has made uncertain noises so--
--
    Mr. Faleomavaega. My time is short. I know the diplomatic 
route. We go through all this. My next question. I think there 
has been an assurance from General Wiranto that they are unable 
militarily to control these vigilante--these people that are 
doing these killings at this time in East Timor. Is that a 
correct assessment?
    Mr. Pickering. I don't know specifically to which 
expression of opinion of General Wiranto you refer. But let me 
say this. General Wiranto has expressed a number of opinions, 
some on the more positive side. What I am concerned about has 
been a history of saying one thing and apparently doing 
something else, of saying that they were going to control the 
security and aiding and abetting the militias, and so to put 
faith in one or another of the comments of someone who at least 
now appears to be knowledgeable of, if not engaged in that kind 
of activity, is a pretty tough sell.
    Mr. Faleomavaega. Mr. Secretary, I know my time is coming 
up. I have one more question. We don't have a NATO-like 
regional security organization in Southeast Asia, but I think 
you are aware that recently the foreign ministry or someone 
from the high officium of the People's Republic of China 
visited the ASEAN country nation and suggested why do we not 
have a regional security organization like NATO has among the 
Europeans and answering this very same problem here; what is 
your perspective about a possibility of ASEAN becoming a 
regional security organization similar to what we have in NATO?
    Mr. Pickering. It didn't begin that way. It is not an 
organization of which we are members. It has carefully guarded 
its own decisions in that regard, and I believe this is a 
decision that ASEAN itself would have to make. I do believe, 
however, that there needs to be in this particular case as much 
participation as possible into any force led by Australia that 
might involve itself in helping the United Nations work out the 
problem, and we certainly were very pleased that at the foreign 
ministers meeting yesterday in Auckland to discuss this 
subject, the Philippines, Thailand, and Singapore were 
represented by their foreign ministers as well as other Asian 
countries because clearly in an Asian problem I believe Asians 
ought to be there very much present in the working out of the 
answers.
    Mr. Faleomavaega. Just 30 seconds, Mr. Chairman. I know my 
time is up. I just want to say this, Mr. Secretary. In all the 
Nation leaders that we visited as Members of this Committee 
throughout the Asian Pacific region, there is one common 
response and concern that every one of these countries have 
been giving to us. In the absence of U.S. presence, whether it 
be diplomatically, economically, or militarily, someone else is 
going to take that place and I believe it is going to be the 
People's Republic of China if we don't act.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you. The gentleman from Florida, Mr. 
Hastings, is recognized. I want to commend him on the 
initiative he has already taken on a resolution. We will work 
with him on this issue.
    Mr. Hastings. I thank the Chairman very much for that 
assertion, and thank you for holding this timely hearing and, 
Ambassador Pickering, my good friend, I thank you for your very 
comprehensive statement and forthrightness in responses.
    I urge all of my colleagues to take into consideration that 
this hearing today is taking place at the same time that the 
APEC meeting is taking place in Auckland, New Zealand, and like 
you, Mr. Chairman, previous speaker, my good friend from 
American Samoa, Mr. Faleomavaega, along with Chairman Gilman 
and several other Members of Congress visited Australia and New 
Zealand and, Brian, my colleague from California Mr. Bilbray, I 
would like to say to you that I for one, and I believe the 
Chairman will assert this, have argued continuously on Asian 
matters that Australia should be consulted a great deal more 
actively than I believe they have been in the past. Lest I move 
forward without mentioning New Zealand, New Zealand also has 
indicated a very strong willingness to participate in an 
appropriate peacekeeping force.
    I would also like very much, Mr. Ambassador, to assert that 
all of this is taking place in a very fragile area, as you have 
pointed out, economically and socially with President Habibie 
maybe not being in control of the military. One example of that 
would be that he set forth the self-determination matter 
without apparent active consultation with the military. The 
military patently obviously has been in complicity with the 
militia. Either that or I can't believe my lying eyes. Even on 
the CNN bits and the little bit of journalism that is coming 
out of there, which is frightening, the fact that journalists 
are being excluded allows for transparency not to be as much as 
those of us here in this country would expect.
    I join my colleague Mr. Faleomavaega in calling for us to 
recognize that an Asian, Australian, New Zealand, Portuguese, 
all of the presidents of the Philippines and Thailand, all have 
a vested interest of bringing this matter to a resolution. But 
as we are speaking, people are dying, and so to the person just 
shot, all of this high sounding rhetoric and intellectualizing 
allows that action has to be taken.
    Ambassador Pickering, you will remember that I was the 
first person in Congress to call Rwanda genocide. It took three 
years for this nation, through Secretary Albright, eventually 
to say the -G word. Now, the -G word gives all of us some cover 
to protect human rights, as has been so amply modified and put 
forward here today by my colleagues. I don't know that genocide 
has occurred, but I would like to ask you a series of questions 
and ask just a yes or no answer in spite of what I know is your 
propensity to be prolix. Please, sir, am I correct that on 
September 4, 1999, the people of East Timor overwhelmingly 
voted, at least 78 percent of them or more, for independence 
from Indonesia?
    Mr. Pickering. Yes.
    Mr. Hastings. Am I correct that after the voting was 
concluded, violence broke out in East Timor?
    Mr. Pickering. Yes.
    Mr. Hastings. Is it also true that the violence is being 
perpetrated in East Timor by army backed militias and it is 
unclear who is directing these militias?
    Mr. Pickering. We at least believe that to be true. I would 
have to be a little cautious in saying I know categorically 
without fail, but we certainly believe that to be true. A 
qualified yes.
    Mr. Hastings. Has the government of Indonesia declared 
martial law in East Timor to quell the violence?
    Mr. Pickering. Yes. It has declared a state of military 
emergency. I want to be a little careful about the fact there 
might be a difference.
    Mr. Hastings. The establishment of this martial law in East 
Timor so far as we know has failed to stop the violence?
    Mr. Pickering. Yes.
    Mr. Hastings. It has been reported that hundreds if not 
thousands of people have been killed, certainly hundreds, and 
injured, killed and injured since the violence began in East 
Timor?
    Mr. Pickering. Yes, it is true that has been reported, not 
only that but we believe it probably to be true.
    Mr. Hastings. We do know that many of these Timorese, 
800,000 residents, have been forced to flee East Timor.
    Mr. Pickering. Yes.
    Mr. Hastings. That the United Nations compound in Dili was 
besieged or access to food, water and electricity was 
intentionally cutoff there?
    Mr. Pickering. We believe that to be true.
    Mr. Hastings. The international community has called upon 
the government of Indonesia to either take immediate and 
concrete steps to end the violence in East Timor or allow a 
United Nations-sponsored international force to enter East 
Timor and restore order?
    Mr. Pickering. Yes, through the person of the Secretary-
General of the United Nations, who was speaking for himself, 
but I think he represents the broad opinion of the 
international community.
    Mr. Hastings. Mr. Chairman, I have substantiated pretty 
much through the Ambassador my very feeble effort at trying to 
address something I think we can do rather than just talk.
    Mr. Bereuter. I thank the gentleman from Florida. Another 
gentleman from Florida, Mr. Davis, is recognized, and then we 
will turn to Mr. Royce for the last word.
    Mr. Davis. Thank you, Mr. Chairman. Secretary Pickering, my 
concern is the price we pay for the passage of time as we allow 
the government in Indonesia to do what we believe is the right 
thing. Let me offer you a painfully clear example of that. 
Sister Judith Supres, who is the provincial of the American 
Order of Salesian Sisters based in New Jersey, has contacted 
Congressman Bill Pascrell and me asking for help. You 
apparently are aware of this. There are eight sisters of that 
order trapped in East Timor right now, at least one of which is 
a United States citizen. Two days ago Sister Supres lost 
communication with them although before she did, she had been 
told that those sisters are going to be evacuated to Baukau, 
which apparently they were not. The sister in East Timor was 
also told the militia was about to burn down the convent that 
was housing these eight sisters as well as the children they 
were taking care of. This United States citizen and others are 
in grave danger as we discuss here today how to pressure this 
country to protect people there.
    So I would like to ask you for your help in reviewing the 
letter I wrote to Ambassador Roy to this effect and also why 
shouldn't we immediately be much more specific and much more 
clear as far as the sanctions you have alluded to in an effort 
to exert maximum pressure on the government to take control of 
the situation immediately?
    Mr. Pickering. We are clearly prepared to look in that 
direction, as I signalled earlier. I think it would be 
premature for me to begin to outline a specific series of 
steps, but I think you know from past experiences we have that 
particularly joined in a multilateral way through the United 
Nations and otherwise sanctions can have a powerful effect on 
the situation. We have begun the process already by the three 
steps that I have previously outlined, the end of military-to-
military programs, the discussion with the international 
financial institutions, particularly the IMF in which it is now 
clear that there will be no forthcoming IMF steps because of a 
series of factors, I am sure including East Timor, but 
including other questions and the fact that we are rapidly 
undergoing a review of our bilateral assistance to make sure 
that it fits in the categories that we believe ought to be 
continued. Other programs would then of course not be 
continued. So we believe that these particular initial steps 
are steps that we have taken immediately today, ought to have, 
I hope, an effect on the situation but if not, as I have said, 
we are reviewing a wide range of additional steps that could be 
taken and I am not in a position to prefigure those but we will 
consult with you as we do because some of them may well depend 
on the help and cooperation of the legislative branch to 
actually put them in effect.
    Mr. Davis. Mr. Secretary, if you would take the time if you 
could to look at a copy of this letter and direct it to the 
appropriate person to reinforce----
    Mr. Pickering. I will. I do want to say that through both 
Ambassador Roy and directly, we have been in regular and 
constant contact with the four American Salesian nuns who are 
in East Timor and worked very hard to protect them and ensure 
their safety and where they wish to come out, to provide an 
opportunity for them to come out, a decision that they 
themselves of course have to make, and in at least several of 
these cases some have chosen to do that, but we share a concern 
for any American citizen in East Timor and clearly have watched 
and followed that very, very carefully.
    Mr. Davis. Thank you.
    Mr. Bereuter. Thank you. The gentleman from California, 
Vice Chairman of the Asia and the Pacific Subcommittee, Mr. 
Royce, is recognized.
    Mr. Royce. Thank you, Mr. Chairman. Ambassador Pickering, 
the outbreak of this violence seems to have caught the 
international community and certainly the United States 
completely off guard. Now we are scrambling. Yet there were 
reports prior to the election that the Indonesian military was 
in the process of organizing an anti-independence militia. 
Looking back over the last several weeks, is there something we 
could have done to preclude this type of violence? Is there 
something, knowing now what was transpiring in terms of the 
training of the militia, some action that could have been taken 
by the United States?
    Mr. Pickering. I recognize that hindsight sometimes makes 
for brilliant pupils.
    Mr. Royce. It might save us the process of going through 
this again.
    Mr. Pickering. Let me be careful. First, we always knew 
that this was a possibility. We looked at a large number of 
contingency plans, possibilities, and options as it unfolded, 
and very early on. We came to the conclusion that a number of 
responses that may make sense were not realistic unfortunately 
without the Indonesian agreement that we are still trying to 
seek for the present response. Indonesian agreement in our view 
would not be forthcoming on a number of those. Some of those 
took us beyond where the United Nations Secretary and other 
concerned countries at the time were prepared to go. Working 
within those realities, we nevertheless pushed very hard, for 
example, for a large on-the-ground presence, including both 
civilian police and military liaison officers, to ensure that 
the process could be carefully monitored. For the campaign 
phase, we supported a UNAMET of 300 civilian police and 50 
military observers. The United States contributed 30 of the 
police and three of the military observers. This required very 
expensive consultations up here, including some reprogrammings 
which wasn't necessarily always easy to get done. For the 
immediate post election period, the United Nations has called 
for 460, almost 500 police and 300 military observers, and we 
supported that in a Security Council resolution, I believe I am 
correct, either last Friday or a week ago Friday. Under the May 
5 agreement that covers the arrangements between the United 
Nations, Indonesia, and Portugal, the government of Indonesia 
insisted on and was given responsibility for security, clearly 
something it didn't take up. As Kofi Annan, the Secretary-
General of the United Nations, said yesterday, the government 
of Indonesia was able to control the territory for the past 25 
years. The international community had reason to expect that 
Indonesia had the capacity and, since it insisted upon doing 
it, the will to carry out this solemn international commitment.
    Nevertheless, we did everything we could to insist on as 
large a presence to provide the transparency and the monitoring 
of this capacity as we could. I am sure in hindsight we could 
have proposed other things. What I am concerned about since we 
looked at them was the fact that they were nonfeasible. They 
were nonfeasible for three reasons. Indonesia and the U.N. 
weren't going to buy it. The other partners were not prepared 
for it and in some cases we were not able to generate the kind 
of financial support that we thought such a series of steps 
might require in order to be carried out on our own part. This, 
I think, points up the fact that in future such circumstances, 
this kind of a lesson be applied. We felt in fact that there 
were significant enough possibility of this happening that our 
efforts to do larger things, even if they were not workable, 
were the right way to view the problem.
    Mr. Royce. The Indonesian military, as far as the reports 
that they were organizing an anti-independent militia, when we 
became aware of that, did we attempt to broadcast that 
information? Did we attempt to share that information?
    Mr. Pickering. Yes, we did, and it was self-evident and 
apparent and we took it up many times with the Indonesians.
    Mr. Bereuter. The time of the gentleman has expired. I 
thank the gentleman. Despite my assurances, Mr. Secretary, we 
have a Member of the Senate East Asian and Pacific Affairs 
Subcommittee, the gentleman from Wisconsin, Senator Russell 
Feingold, who now is recognized. Senator Feingold.
    Senator Feingold. Thank you very much, Mr. Chairman. Mr. 
Secretary, I know you have been here quite some time. I was not 
here because I just spent over an hour with nine or 10 other 
Members from both Houses talking to National Security Advisor 
Sandy Berger in great detail about this problem and expressing 
the fact that the Members of Congress, many of us feel great 
passion about this subject and I think it even surprised him 
how many of us feel so strongly that what is going on now in 
East Timor is completely out of control. Yesterday I introduced 
legislation, S. 1568, and Representative Patrick Kennedy has 
introduced an identical bill in the House, I understand, to 
impose immediate suspension of assistance to the government of 
Indonesia until steps have been taken to allow the results of 
the August 30, 1999, vote to be implemented. The bill calls for 
the immediate suspension of all U.S. Military assistance to 
Indonesia, including the licensing of military exports. It 
calls on the United States also to oppose any loans or other 
assistance by international financial institutions and to urge 
other donor countries to do the same and express its support 
for an international peacekeeping mission.
    Mr. Chairman and Members of the Committees, I obviously 
want this legislation to pass or something like it, but 
specifically we need the Administration to make much tougher 
and stronger statements in support of getting Indonesia to back 
off and allow this peacekeeping force to come in now. I do not 
think it is sufficient to have the kind of statements that we 
have had to date. In fact, I would like to see the President, 
and I understand he will be speaking on this in an hour or less 
than an hour and a half or so, I would like to see him ask us 
for this legislation so he can have it on his desk when he goes 
to New Zealand and so that he can be able to actually have a 
credible threat to the Indonesians that if they don't do the 
right thing within a few hours, that something real will 
happen, that we will send a real message to the Indonesian 
power structure, not just to Mr. Habibie.
    I am afraid we are not moving strongly enough on this or 
quickly enough, and I think it would be one thing if we had 
just not engaged the country in a lengthy attempt to convince 
some of the wisdom of the action in Kosovo. The action in 
Kosovo was perhaps premised on security reasons but the reason 
articulated was humanitarian. The reason articulated was 
genocide, and the President of the United States said that he 
regretted that our country did not act in Africa in the case of 
Rwanda and he said he would never let it happen again. But it 
is happening again and it is happening in East Timor.
    So I would urge all Members of the Committees in both 
Houses that the best thing we can do at this point is to 
immediately pass this legislation, place it on the President's 
desk so that when he goes and has this meeting with the 
Indonesian government and the officials realize that we mean 
business and that we don't want to wait for a few days to find 
out that they are going to say no and then after that try to 
figure out what we are going to do. We must raise the stakes 
now as high as we possibly and responsibly can.
    Mr. Chairman, I very much appreciate this opportunity so 
late in the day to make my feelings known.
    Mr. Bereuter. Thank you very much, Senator Feingold.
    Ambassador Pickering, thank you very much for your 
statement and for your responses to our questions. We wish you 
well in pursuing your activities in this respect. We have 
another distinguished Senior Member of the Foreign Service, 
Stapleton Roy, on the scene as Ambassador to Indonesia, who, 
along with your leadership, gives us confidence. We look 
forward to working with you.
    Thank you for your time.
    Mr. Pickering. Thank you very much, Mr. Chairman and 
Members. I appreciated the opportunity to come up here.
    Mr. Bereuter. Regrettably, the House has a series of two 
votes. We must pursue those, and we are recessed to take up the 
second panel at 4:15.
    [Recess.]
    Mr. Bereuter. The Subcommittee will come to order.
    I would like to call the second panel of witnesses to the 
testimony table. I regret imposing on so much of our 
distinguished second panel's time. What you have to say is 
important to us and, I think, will be important in informing 
the American public about the situation in East Timor and about 
the futures of Indonesia and East Timor.
    As I previously introduced you, I will just simply 
summarize the details about you. First, Ambassador Paul 
Wolfowitz, currently the Dean of the School of Advanced 
International Studies at the Johns Hopkins University. Among 
other important posts in the State Department and Defense 
Department, he was our Ambassador to Indonesia and served with 
distinction.
    Dr. Donald Emmerson is Senior Fellow at Stanford 
University's Asia Pacific Research Center and the University of 
Wisconsin-Madison Professor of Political Science and Southeast 
Asia studies. He recently was in East Timore as a monitor on 
the elections.
    Finally, I introduce Ms. Sidney Jones, Executive Director, 
Asia Division of Human Rights Watch, a welcome and frequent 
witness before this Subcommittee.
    Your entire statements will be made a part of the record.
    I would like to proceed. Ambassador Wolfowitz, we will 
start with you. Please proceed, and thank you for your time.

    STATEMENTS OF PAUL WOLFOWITZ, DEAN, SCHOOL OF ADVANCED 
        INTERNATIONAL STUDIES, JOHNS HOPKINS UNIVERSITY

    Mr. Wolfowitz. Thank you, Mr. Chairman. I appreciate the 
time that you and the Committee are devoting to this important 
issue. My apologies. I just got back from out of town 24 hours 
ago. I have been trying to do my best to get on top of this 
issue. The result is I have a prepared statement, but you do 
not have a copy of it, so I can't summarize it. I will try to 
be brief, however.
    Mr. Bereuter. I think I know where you have been. In some 
cases I have matched your schedule.
    Mr. Wolfowitz. I know. In fact, I think I last saw you in 
Sydney.
    Let me begin by saying the obvious, which is that what has 
taken place in East Timor over the last few months and 
particularly the last week is appalling. It is appalling in 
character, it is appalling in scale, it is appalling in the 
level of direct involvement by the Indonesian military. I would 
say, too, in the last 24 hours I have had briefings from people 
within our own Defense Department, and it is very dismaying to 
hear what they have to report that confirms what eyewitnesses 
are saying about the involvement of Indonesian military.
    It may seem superfluous to say all of this to this panel. 
It seems pretty obvious perhaps to Americans, but in speaking I 
am also speaking to Indonesians, and I am speaking as a former 
Ambassador. We Ambassadors are sometimes accused of forgetting 
whether we are Ambassadors to a country or from a country. I 
always tried to remember. I was the American Ambassador to 
Indonesia, not the Indonesian Ambassador to the United States. 
But I did develop an enormous affection for Indonesia.
    I would like to speak not only to the Congress, but to the 
millions of Indonesians who feel that the world is biased 
against them on East Timor. I am not biased against them. I 
have no a priori proindependence bias, but I believe one cannot 
ignore the overwhelming vote in East Timor in favor of 
independence or the overwhelming evidence of Indonesian 
atrocities in East Timor. I sympathize with the millions of 
Indonesians who fear that the independence of East Timor might 
lead to a breakup of their country, but the actions of the 
Indonesian military in East Timor can only make the people of 
Aceh and other regions in Indonesia more unhappy about being 
governed by such authorities.
    The key to preserving the unity of Indonesia, which I 
believe is strongly in the interests of the United States, is 
to make the case that East Timor is fundamentally different, 
historically and politically, and for the Indonesians to act 
quickly to regain the respect of the international community.
    I sympathize with the millions of decent Indonesians who 
believe that there has been bias in reporting of events in East 
Timor, that proindependence atrocities are often not reported 
at all. But I would say to them that if even half of what is 
reported is true, or even if one-quarter of it is true, and I 
believe a good deal more than that is true, it is appalling.
    The evidence of complicity by Indonesian military 
authorities is also convincing and appalling. It is a stain on 
the honor of millions of decent Indonesians, and it is 
indefensible. I sympathize with those millions of Indonesians 
who fear for the safety of those people in East Timor who are 
prointegration. It is true it was an overwhelming vote in favor 
of independence, but let's not forget 20 percent of the 
population of East Timor are against independence as expressed 
in that vote, and I am sure those people do fear for their 
lives and their safety, but the present violence does nothing 
to ensure their safety. That safety would best be assured, I 
believe, by accepting the proposals for some kind of 
international security force, but it is certainly not assisted 
by this kind of violence.
    Finally, I do sympathize, although I don't really agree, 
with those who object that the process by which Indonesia got 
here was precipitous, that it lacked political legitimacy and 
perhaps constitutional legitimacy, and that the referendum 
itself should have offered a third, more gradual alternative to 
the stark choice between integration permanently or immediate 
independence. But whatever one says about how we got here, I 
believe, and I think an increasing number of decent Indonesians 
understand, that there is no turning back, that last month's 
vote has created an irreversible situation, and I believe the 
best thing for Indonesia is to move forward quickly and 
smoothly, not to get mired in a backward-looking effort to 
reverse the course of history.
    Finally, I have no sympathy whatsoever for those 
Indonesians who are claiming that what is taking place there is 
a result of some kind of international conspiracy aimed at 
breaking up the country. I would have been enormously happy, 
although I admit I would have been surprised, if there had been 
an 80 percent vote in favor of integration. I have no, as I 
say, a priori bias. But what we are seeing is not the result of 
any international conspiracy. It is a result of a 24 year 
failure of Indonesian policy. Perhaps that policy never could 
have succeeded. Perhaps one can say it did succeed in 
preventing in the 1970's a Cuba on Indonesia's doorstep, but 
that is not a threat any longer. If there is a conspiracy at 
all, it is a conspiracy by those authorities in East Timor and 
perhaps elsewhere in Indonesia who have sought and are still 
seeking to keep the truth from the Indonesian people and from 
the world.
    The immediate needs in East Timor, I think, are clear: to 
restore order, to deal with the humanitarian catastrophe that 
has taken place, and to implement the tripartite agreement.
    What I would like to emphasize for this Committee and for 
the Congress is that I think in addition to East Timor, there 
is a task of at least equal importance, and that is for the 
United States and the international community to support the 
democratic transition that is taking place hopefully in the 
rest of Indonesia. I think a democratic government in Indonesia 
will ultimately provide a solution for many of the problems 
that Indonesia faces today, and also I think it will help the 
problems of East Timor.
    But in the short term it has to be admitted that democracy 
complicates the situation, because it is a fact, and we can 
discuss the reasons why, that I think the overwhelming majority 
of the 200 million or more Indonesians outside of East Timor 
are opposed to East Timor's independence and fear it. And so 
there is indeed a short-term conflict between democracy in 
Indonesia and moving forward on implementing the referendum. 
But I do believe as the knowledge of what has taken place in 
East Timor sinks in, as the recognition that 80 percent of the 
people of East Timor do indeed believe in independence, that 
the actions of the Indonesian military in East Timor have been 
indefensible, that Indonesian opinion will change, and 
particularly the opinion of the important new democratic 
leaders of Indonesia will change as it seems to be changing 
already.
    I have gotten a number of private laments from Indonesian 
friends. Let me just quote from one e-mail that came my way in 
the last 24 hours:
    ``believe me when I say that whether or not most of the 
Indonesian people agree with the referendum on East Timor, most 
are saddened and shocked at what is going on there. Please do 
not let this incident which has had direct and immediate 
consequences for the people of East Timor hinder the progress 
that is made in Indonesia. Habibie has no legitimacy. 
Therefore, the policy is not the policy of the Indonesian 
people. The country is on the verge of finding democracy and 
the foreign community should continue to give their support in 
spite of the situation in East Timor.''
    It would compound the tragedy of East Timor a thousandfold 
if we were to isolate Indonesia in such a way as to drive the 
new democratic forces in that country into the arms of the 
thugs who have orchestrated the present tragedy in East Timor 
and doom the promising but still fragile prospects of a 
democratic transition in Indonesia. Without being starry-eyed 
about democracy solving all the problems of the world, I 
believe that democratic transition is extremely important for 
Indonesia and 200 million Indonesians. I believe it is a key in 
many respects for them to dig out of the present economic and 
social crisis that they face. I think the democratic transition 
is important for the stability of Indonesia, and therefore it 
is important for the whole region and for U.S. interests in the 
region. If one can look beyond the many problems of the present 
and think about the future a few years from now where Indonesia 
might have successfully become the third largest democracy in 
the world, one of the only democracies in the Moslem world, 
then I think Indonesia's success will become very important for 
the rest of Asia and for the rest of the Moslem world.
    I don't believe that Americans understand very well the 
importance of Indonesia. I couldn't say it better than you 
have, Mr. Chairman, on the bottom of page two of your opening 
statement. I would just perhaps summarize it all by saying I 
don't think there is any country in the world as important as 
Indonesia about which Americans remain so ignorant.
    So the question is, how is it possible to square this 
circle? How is it possible to bridge the requirements of 
democracy in East Timor and the requirements of democracy in 
Indonesia, particularly if they conflict, at least in the short 
term? It is a very hard problem. I don't have a magic answer, 
but I would suggest five policy principles that I think would 
be useful in guiding the actions of the Congress as well as the 
Administration.
    The first is I think it is very important in what we do and 
particularly in what we say to distinguish between the 
Indonesian people and those Indonesian authorities responsible 
for what has taken place in East Timor. I was on a USIA 
sponsored program roundtable last night with two former 
Indonesian Ambassadors to the United States based in Jakarta, 
and Ambassador Artin Searagar, who actually had been a minister 
in President Suharto's government, was profoundly critical as 
was his colleague Ambassador Habib of the actions of Indonesian 
authorities in East Timor, and he pleaded for us to distinguish 
between the Indonesian people and those authorities.
    I think part of doing that, though, is also to make clear 
that we understand that East Timor is a special case, that the 
breakup of Indonesia would be harmful to the United States and 
the region, and also that militarized tactics of the kind that 
are being used in East Timor will only hasten the 
disintegration of the country.
    At the same time, I think Indonesians have got to recognize 
that there is no turning back after an 80 percent vote in favor 
of independence. I think they are recognizing it, and I think 
they can recognize it increasingly. I think it is important in 
what we say to speak about facts and speak in a way that people 
can listen, because they need to understand the facts which are 
coming at them, I think, rather fast and rather hard.
    The second principle is I would say more radically 
diversify our contacts with political leaders in Indonesia, 
recognizing that we are now well into the--I guess not well 
into, but beginning the fourth month of a lame duck government. 
It would be as though the United States had held an election in 
early November, and 3 months later we still hadn't decided who 
the President-elect was.
    There is an enormous vacuum of authority in Indonesia. 
That, in fact, has contributed, I believe, to the problem. But 
there are people, and particularly obviously Megawati 
Sukarnoputri, who have achieved important democratic 
legitimacy. I think we need to talk with them about their 
prospective future roles. They are not yet the government, but 
I think we need to treat them as people who may very well be 
the government. And I believe as part of that, if there is 
anything we can do to encourage them to shorten this 
agonizingly long transitional period, the sooner Indonesia has 
a new President, the sooner Indonesia has a legitimately based 
government, the more effectively the military can be brought 
under control, the more effectively the results of the 
tripartite agreement can be implemented constitutionally.
    Third, I don't see in the present circumstances how one can 
continue with generalized economic assistance to a government 
that not only seems incapable of controlling what its military 
does in East Timor, but at best incapable of controlling what 
banks and money goes into. I think there inevitably has to be a 
moratorium on assistance other than that assistance that does 
go directly to relieve the suffering of the many Indonesians 
who have been affected by the disastrous economic crisis that 
country faces. But I think substantial assistance has to wait 
until a new government is formed, or at least until the present 
government and not just the President, who I think would like 
to implement the results of the referendum, but the whole 
government has changed course in East Timor.
    Fourth, I support very strongly what one of your colleagues 
was saying earlier about Australia's unique role. I don't 
believe there is an ally in the world who has consistently 
fought on the side of the United States and supported the 
United States as loyally and faithfully as Australia. We need 
to recognize that for Australia this is a crisis in their 
backyard. I heard one senior Australian official quoted as 
saying that this is the most serious security crisis Australia 
has faced since the battle of the Coral Sea. Even if that may 
be slight hyperbole, it tells us something about how the 
Australians feel about this, and I think it is very important 
that we make clear that we will, in fact, support our faithful 
ally. Indeed, I think we should all be grateful that Australia 
is willing to step up to its responsibilities in the region as 
strongly as it has been willing to do.
    Fifth and finally, I think we should do everything possible 
to relieve the humanitarian suffering in East Timor. Ultimately 
I think it will be the best thing for Indonesia to implement 
the referendum as quickly as possible and turn over the 
responsibility for East Timor, including the security of East 
Timor, to the international community. I believe that 
Indonesians and Americans should be grateful to the Australians 
and others who have indicated a willingness to take on this 
kind of responsibility, but that major change obviously 
requires Indonesian agreement. Until we move that far, I think 
it is very important to do everything possible to limit and 
alleviate the humanitarian suffering. That means doing 
everything possible to keep observers in East Timor. Nothing 
more intimidates, I think, or at least restrains human rights 
violations than the knowledge that they are going to be known 
to the outside world. There are obviously enormous relief 
requirements, and hopefully perhaps there will be the 
possibility of returning refugees.
    Let me just conclude, Mr. Chairman, really by repeating 
what I said earlier. It is very important to try to undo as 
much as possible the tragic consequences of the last week in 
East Timor and to move ahead in implementing the results of 
that referendum, but it is at least equally important that we 
move forward on Indonesia's democratic transition, and I think 
the goal of Congressional action and Administration policy has 
got to be how to figure out how to square that circle and to 
accomplish both.
    Thank you very much.
    Mr. Bereuter. Thank you very much, Ambassador Wolfowitz.
    Mr. Bereuter. Dr. Emmerson, you have submitted a written 
statement. The entire statement will be made part of the 
record. You may summarize as you wish.

 STATEMENT OF DONALD K. EMMERSON, SENIOR FELLOW, ASIA/PACIFIC 
              RESEARCH CENTER, STANFORD UNIVERSITY

    Dr. Emmerson. Thank you. I would like to begin by 
expressing my thanks to the Subcommittee for inviting me to 
speak today, to the National Bureau of Asian Research in 
Seattle for facilitating my travel to Washington, and to the 
Carter Center in Atlanta for having enabled me to help monitor 
the popular consultation conducted by the United Nations in 
East Timor on the 30th of August.
    Since I was, as it were, on the ground rather recently, I 
hope you will forgive me if I focus just on two questions. The 
first question is: who is, in fact, responsible for the 
violence? The second question is: with what implications for 
U.S. policy?
    Early on the morning of the 30th of August, I and my fellow 
monitor from the Carter Center, Annette Clear of Columbia 
University, were at the extreme eastern tip of East Timor on 
the road from Tutuala to the voting center in Mehara. The 
courage of the East Timorese people and their desire to choose 
their future were immediately evident to us. On the side of the 
road, we passed hundreds of people walking to the polls. At the 
seven different voting centers we visited that day, from Mehara 
westward to Baucau, thousands of Timorese waited patiently for 
hours under a hot sun to cast a ballot, either to accept 
autonomy inside Indonesia, that is, integration, or to reject 
integration in favor of separation leading to independence.
    As we know, the vote went overwhelmingly for separation, 
and then the voters suffered a catastrophe of truly egregious 
proportions. The militias had embarked on a policy that might 
be termed ``political cleansing'', killing independence 
supporters, injuring them, hounding them out of the territory. 
Some of the Timorese staff who facilitated the Carter Center's 
monitoring mission in East Timor managed to escape, but I 
deeply regret to say that some have still not been heard from. 
Meanwhile, the death toll mounts. Of particular concern to me 
is a woman named Mena and her five children. Mena prepared 
meals for the Carter Center Team during our stay in Dili. She 
was last reported with her children to be in the CARE 
compound--before, unfortunately, it was attacked.
    Five main explanations for this paroxysm of violence in 
East Timor are being put forward by various parties. I would 
like to compare them and assess them. The first explanation is 
the one favored by the Indonesian government. It pictures a 
civil war unfolding in East Timor between prointegration and 
proindependence forces, with Indonesian authorities caught in 
the middle, understandably hard-pressed to restore peace. As my 
colleagues and I saw with our own eyes, this account is 
blatantly false. If I may quote from the press release issued 
by the Carter Center earlier this week, ``Carter Center 
observers have on numerous occasions witnessed militia members 
perpetrating acts of violence in full view of heavily armed 
Indonesian police and military personnel who either stand by 
and watch or actively assist the militias.''
    According to the second explanation, the militias' rampage 
has been locally organized and instigated by Indonesian 
military officers and units stationed in East Timor, but 
without the knowledge, or with the knowledge but without the 
approval, of their superiors in Jakarta. This argument crops up 
frequently, for example, in journalistic accounts. But the 
argument is, if I may say so, implausible, for several reasons.
    Anyone who has interviewed high-ranking Indonesian officers 
in Jakarta in recent years will have been struck by their 
reluctance, if not their outright refusal, to let East Timor 
go. Even reformist officers who say they support 
democratization and eventual civilianization for East Timor 
typically draw the line at independence for the territory.
    In the past, senior commanders have been aware of, and have 
supported, military backing for the militias. Since the 1970's, 
when the territory was first invaded and annexed by Indonesia, 
Jakarta's army has been incubating, irregular bands of young 
Timorese men to support its anti-independence war. Furthermore, 
when he was President of Indonesia, Suharto streamlined its 
armed forces. His highly centripetal rule removed the 
possibility that local warlords could arise on the periphery of 
the archipelago to pursue policies opposed by the central 
leadership in Jakarta.
    It is true that, over the years of Indonesian repression in 
East Timor, special forces and intelligence units established a 
proprietary role for themselves in the territory. Indonesian 
dominion itself grew out of covert operations conducted by 
officers with backgrounds in intelligence. In May 1998, the 
commander of the Indonesian Armed Forces, General Wiranto, 
disciplined and ousted from the army a former head of special 
forces, Prabowo Subianto, who had threatened his position. But 
Wiranto did not purge Prabowo's network of allies and 
supporters, who remain to this day active and influential in 
East Timor.
    Perhaps I might share a brief anecdote with you. Because of 
the China Airlines crash in Hong Kong, I was delayed 26 hours 
and had to fly to Kupang (in West Timor) and take a six hour 
cab ride to the border of East Timor. By the time I got to the 
border, it was dusk, and I had been told in no uncertain terms 
by the Carter Center not to travel on the roads at night. 
Furthermore, there was no one who would take me across the 
border at night. The drivers were all terrified of the 
roadblocks that they knew had been set up by the militias just 
a few kilometers down the road, inside East Timor, on the way 
to Dili.
    There was, however, one driver who came to me and said, ``I 
will take you. In fact, I already have a passenger. He's an 
Indonesian army intelligence officer, in the back seat, and I'm 
taking him to Dili. Would you like to join us? '' The driver 
went on to say that many of the militias were personal friends 
of his, and that therefore he could guarantee my security. 
Needless to say, I opted not to become a passenger in that 
taxi, but it struck me as curious that an Indonesian military 
intelligence officer would seek that route, at night, into East 
Timor.
    Some say Wiranto is too weak to order the local commanders 
in East Timor to arrest and disarm the militias. But he was 
strong enough to remove Prabowo last year, and since then 
arguably Wiranto has consolidated his position. Indeed, he is 
often discussed as a possible candidate to be elected vice 
president of the country by the People's Consultative Assembly 
in November. Perhaps he is reluctant to discipline the Timor 
command lest doing so jeopardize the intramilitary support he 
will need to pursue higher political office.
    Another reason to suspect high-level military complicity in 
what is going on in East Timor is the desire of army leaders to 
prevent events in East Timor from entraining the dismemberment 
of Indonesia. By ratcheting up the violence immediately after 
the vote, the military may be sending an intimidatory message 
to Aceh, Irian Jaya and other restive outlying provinces. That 
message might be summarized thus: Do not go for independence. 
The Timorese did, and look what it got them.
    For these reasons, I am inclined to accept this third 
explanation: that ultimate responsibility for the catastrophic 
conditions prevailing in East Timor must be assigned to the 
Indonesian military, not only local units but also their 
superiors in Jakarta who by action or inaction have encouraged 
or tolerated the present frenzy of destruction.
    The fourth explanation is that the killing, burning, and 
looting in East Timor were ordered by Indonesian President BJ. 
Habibie himself. I doubt this. It was, after all, Habibie who 
initiated the process of self-determination last January when 
he proposed consulting the East Timorese on their fate, and he 
took that radical step without first obtaining army approval. 
Army leaders, never close to him before, were furious that he 
had gone over their heads to innovate an act of self-
determination in their, that is, the army's, territory, even 
though the event was billed as an advisory consultation, not a 
binding referendum. That army units could instigate so 
blatantly the thwarting of Habibie's plan shows, I think, how 
little control over them he has. Indeed, it is possible that 
his presidency may not survive this crisis.
    The fifth and final explanation attributes the depredations 
in East Timor to Suharto, who resigned his presidency in favor 
of Habibie in May 1998 and returned to private life. But 
Suharto is seriously ill, too ill to be directing events in 
East Timor by remote control. The recourse to official violence 
that characterized his authoritarian regime did create a 
climate and an apparatus conducive to repression, including 
repression in East Timor, but the militias are not being 
manipulated by Suharto himself.
    If I am right to place responsibility for the mayhem in 
East Timor on the Indonesian army including its leadership, it 
follows that American policy should pay particular attention to 
that institution and that leadership. In this context I was 
delighted to learn just now from Ambassador Pickering that the 
U.S. government has cut all military-to-military relations with 
Indonesia, for that is exactly what I recommended when I wrote 
this draft early this morning before flying to Washington. By 
singling out the military in this manner, the United States has 
also sent a message to the civilian leadership in Indonesia 
that we are not--I repeat not--trying to make an enemy of their 
country.
    By this same logic--the need for selectivity--I would think 
twice before trying to cancel all foreign assistance to 
Indonesia as punishment for what is happening in East Timor. In 
this regard, perhaps, I differ with Senator Feingold. Take the 
World Bank's effort to provide a social safety net to 
Indonesia's many poor people, including those impoverished by 
last year's double-digit shrinkage in GDP, or USAID's and the 
congressionally funded Asia Foundation's efforts to support 
NGO's, civil societies, democratic governance, the rule of law. 
One may wonder at the consistency of a policy that in the name 
of democracy, self-determination, for 850,000 East Timorese 
threatens to terminate programs to help bring democracy to 220 
million Indonesians.
    Depending upon the behavior of Indonesia's government, it 
may well be appropriate to delay the next installment on the 
IMF-led package of structural loans. We should realize, 
however, that actually slashing such support could cause budget 
and subsidy reductions that could lead to higher prices for 
basic commodities and services, food, kerosene, bus fares, and 
so on. That could cause more violence, especially in already 
volatile urban areas. A growing number of Indonesians already 
believe that Australia, the United States, and other foreign 
countries are scheming to break up their nation.
    Whatever else it does, the U.S. government should 
substantially increase the pressure on President Habibie to 
allow an armed peacekeeping force to stop the violence in East 
Timor and restore order there if Jakarta cannot do so. Such an 
intervention should be coordinated with Australia and Asian and 
other countries, the prospective members of a ``coalition of 
the willing'', that is the phrase being used, that would assume 
this responsibility with the approval, or at least the 
acquiescence, of the Indonesian government and the United 
Nations.
    I can understand the reluctance of Defense Secretary 
William Cohen to commit American troops to such an undertaking. 
Asians and Australians can and should take the lead. But 
American support, at least in the form of logistics such as 
airlift capability, would send an appropriate signal to 
Indonesia and to the world that the United States cannot stand 
passively by while a legitimate act of self-determination is 
drowned in blood and flames.
    Thank you.
    Mr. Bereuter. Dr. Emmerson, thank you very much for your 
excellent statement.
    [The prepared statement of Dr. Emmerson appears in the 
appendix.]
    Mr. Bereuter. Ms. Sidney Jones, we will be pleased to have 
your testimony. You may summarize as you wish.

 STATEMENT OF SIDNEY JONES, EXECUTIVE DIRECTOR, ASIA DIVISION, 
                       HUMAN RIGHTS WATCH

    Ms. Jones. Thank you very much. I just learned that this 
morning when the Security Council delegation that is now in 
Jakarta was meeting with Xanana Gusmao, who is likely to be the 
leader of an independent East Timor, they were informed that 
militias had just killed Xanana's father. I spoke to a member 
who was present at that meeting. He said it was the most 
wrenching meeting he had ever attended and that both Xanana and 
members of the Security Council delegation were in tears by the 
time it was over.
    I believe that what we are seeing in East Timor today is 
part of a deliberate military plan to thwart independence, and 
that plan began in January 1999 just after President Habibie 
announced that he would give East Timorese the option of 
leaving Indonesia. It involved establishing a network of armed 
anti-independence militias and trying to intimidate 
independence supporters into not registering and not voting in 
the referendum that was held on August 30. When that strategy 
failed, the fallback, which many diplomats in Jakarta were 
aware of as a fallback, was to do exactly what the militias are 
doing now, have the losers challenge the vote as unfair and 
unleash such violence that further moves toward independence 
would become impossible. That plan has gone exactly according 
to script.
    I think the militias should have been stopped much, much 
earlier, and I believe what we have to do now is look at five 
very difficult measures, but we have got to look at all of 
them.
    I strongly support the idea of a multinational peacekeeping 
force, although I do agree that you have to get Indonesian 
permission for such a force, and I believe that the United 
States should contribute to that in a very significant way. But 
one thing that hasn't been mentioned thus far is that the 
political climate in Jakarta now is very tense and increasingly 
anti-U.N. and anti-Western. There is a real backlash in Jakarta 
now to what has happened in East Timor. As Don said, the 
message being conveyed to the public by the Indonesian press is 
not that the violence in East Timor is a murderous, one-sided 
rampage, but that it is a civil war between proautonomy and 
proindependence forces. Moreover, it is portrayed utterly 
unfairly as having been sparked in large part by a U.N. 
operation that was biased from the beginning and designed only 
to further the strategic interests of Australia and the United 
States, and the Jakarta press mentions the strategic interest 
and machinations of Australia and the United States on a 
repeated basis. There is more of a backlash against Australia 
than against Americans, but the anti-Western backlash is 
growing.
    In this climate agreeing to an international force led by 
those same powers would be political suicide for either Habibie 
or Wiranto, and they both know it. This means that even 
relatively explicit warnings of the economic consequences of 
letting this violence continue are not going to have an effect, 
so the only option is to act, not threaten.
    We believe that all nonhumanitarian assistance, and 
especially direct budgetary support to the Indonesian 
government, should be suspended immediately, together with any 
pending sales or deliveries of military equipment, including 
spare parts. If the Indonesian government agrees to an 
international peacekeeping force within days, some nonmilitary 
assistance should be resumed, but full economic and military 
relations should not be restored until three conditions are 
met: UNAMET is able to fully resume its functions in all 13 
districts of East Timor, the displaced are able to return home 
safely, and militia commanders responsible for acts of violence 
are arrested and prosecuted.
    We also believe that for maximum impact, this suspension of 
military and economic aid must be coordinated with Japan, 
Germany, Australia and other members of the donor consortium, 
called the Consultative Group on Indonesia, or CGI, which in 
July pledged $5.9 billion to Indonesia to assist in its 
economic recovery.
    The second measure that the United States should take is to 
get relief workers and aid agencies back into East Timor as 
soon as possible. All health and humanitarian workers in East 
Timor without exception have now been evacuated. There are no 
witnesses to what is happening on the ground. 
Telecommunications were cutoff as part of Habibie's martial law 
decree of September 6 and have only been partially restored. 
There were reports from one humanitarian agency forced to 
evacuate on Tuesday that hospitals and clinics were being 
systematically destroyed. Just as when Indonesia invaded East 
Timor in 1975, the majority of deaths may come less from 
killing than from the inability of a huge and growing displaced 
population to find food or get medical care.
    As discussions take place with the Indonesian government 
over a multinational force, one consideration should be how 
this force can assist with the return and protection of 
humanitarian agencies to address this looming disaster. Without 
such a force, East Timorese will be left at the mercy of the 
Indonesian Army, and the Indonesian Army has shown no mercy 
thus far.
    The third measure is to press Indonesia to remove all 
restrictions on relief and humanitarian work in West Timor as 
soon as possible. East Timorese today were pouring into West 
Timor at a rate of 3,000 people per hour, according to the 
International Committee of the Red Cross, and there were 
believed to be some 60,000 there as of yesterday. Some had been 
forcibly expelled with the direct involvement of Indonesian 
military and police.
    This morning I called the town of Atambua, the West 
Timorese town on the border with East Timor, and learned that 
members of the Dili based militia called Itarak were 
accompanying truckloads of refugees into town, and some of 
these were taken directly to the district military command and 
police headquarters. Numerous eyewitnesses report that militia 
members have a presence in some of these refugee camps.
    I actually learned today that militia members are now in 
control of the Kupang airport, although I haven't verified 
that. Those fleeing or forced out by militia violence have no 
protection against assault, nor are they likely to get any at 
all unless international agencies are able to have a full-time 
presence in the camps in West Timor, we are not even talking 
about East Timor, carry out a full range of humanitarian 
services and have enough confidence in local authorities to 
know that reports of abuses against refugees will be thoroughly 
investigated. But instead of cooperation from local 
authorities, relief workers are being denied access to the 
refugees and told that they blame foreigners for what has 
happened to them and that their own security is in danger.
    It is not only critical that forcibly expelled refugees are 
protected and have access to assistance, it is also essential 
that their stories get out so that the world understands how 
and by whose hands they got to West Timor. In discussions on 
East Timor at the APEC meeting in New Zealand, the 
Administration should give high priority to this issue and work 
out with other APEC members a strategy for persuading the 
Indonesian government to lift restrictions on access.
    Fourth, the results of the August 30 referendum have to be 
protected. The East Timorese defied the guns and machetes to 
turn out in such overwhelming numbers. The army that created 
and backed them must not be allowed to do to independence what 
the Burmese government did to democracy in 1990. They are 
trying to do this now by the scorched earth policy and forcible 
expulsions of people and by a smear campaign going on against 
UNAMET, and the statements made repeatedly by Indonesian 
officials, including Foreign Minister Alatas, that the U.N. was 
biased, allowed major fraud in the referendum and only half 
heartedly investigated allegations of irregularities in the 
registration and polling process.
    This scorched earth policy and these expulsions will leave 
the militias in charge of large parts of East Timor unless they 
are disarmed and pushed out. The militias have publicly 
rejected the results of the referendum, and there is a concern 
that they will have tried to effectively partition East Timor 
with the western districts refusing to join an independent 
state.
    The countries that encourage the formation of UNAMET and 
helped finance it, including the United States, cannot let this 
happen. It is for this reason that it must work to see that 
Indonesia ensures the safe return of refugees and arrests the 
perpetrators of violence. The smear campaign against the U.N. 
means, I think, for the first time that there is a real 
possibility that the MPR, the People's Consultative Assembly, 
which meets in November, may refuse to ratify the results of 
the referendum on the ground that it was not fairly conducted. 
And even though Megawati has given different signals on this, a 
senior official of her party said yesterday that the PDI might 
refuse to endorse the results of the referendum. So U.S. 
officials need to use every opportunity to remind Indonesian 
officials and opposition leaders that they are on record as 
promising to respect the results of the referendum, and that 
both President Habibie and senior members of the Cabinet 
acknowledged on the day of the vote that it had been orderly, 
free and fair.
    Finally the United States needs to press Indonesia to end 
the martial law that was just imposed. We do not believe that 
martial law is either justified or desirable. The army could 
have stopped the violence with the troops it had on the ground, 
and it had 15,000, at least. If some militia leaders are saying 
today, as they are, that they have declared a cease-fire, it is 
not the result of a new military commander or the increased 
powers granted to the military under martial law. It is because 
an order given by Jakarta was made that could and should have 
been given 6 months ago.
    Violence is still likely to continue when and where the 
army sees fit. The fact that soldiers operating under martial 
law and accompanying a UNAMET convoy to its warehouse on 
Wednesday, yesterday, did nothing to stop the militias from 
attacking is all the evidence one needs that new troops will 
not necessarily be guarantors of peace.
    We fear that martial law will be used to keep restrictions 
on communication to ensure the army's work takes place out of 
public view. We fear it will be used to mount operations 
against the guerillas, who, it should be noted, between January 
and the referendum largely refrained from the use of violence, 
and against members of CNRT, the proindependence political 
organization. Today we received reports that at least one 
senior leader of CNRT, Mouhodo, was arrested in East Timor and 
brought to Kupang, West Timor, where he is believed to be in 
police detention. That may be the beginning of a pattern.
    Finally we fear that martial law will be used as a cover to 
find, quote, evidence, unquote, that the August 30 referendum 
was unfair, such as allegedly uncounted proautonomy ballots 
found today. With no impartial witnesses to document how this 
evidence was uncovered, any claims of such discovery should be 
treated with the greatest skepticism.
    I should also point out there is no indication of how long 
martial law will endure or who other than the military will 
decide when order has been restored. The United States should 
make clear to the Indonesian Army that arrests of key military 
leaders would be a key test of the army's will to restore order 
and that martial law should be lifted.
    Thank you, Mr. Chairman.
    Mr. Bereuter. Thank you for your powerful statement. Among 
all the other distressing things, I am particularly distressed 
to hear reports about Mr. Gusmao's father.
    [The prepared statement of Ms. Jones appears in the 
appendix.]
    Mr. Bereuter. I will start with questions under the 5 
minute rule and then turn to my colleagues.
    One thing that I have noticed over a period of time is that 
the amount of U.S. assistance to a country--be it Mexico or 
Indonesia--is always overestimated by our colleagues and by the 
American public. When we were proposing to cut off aid to 
Mexico, we had no foreign aid to Mexico. We have a relatively 
small amount of leverage in terms of a bilateral aid sense to 
Indonesia at this point. The military aid is minuscule. It has 
no impact whatsoever except in a symbolic sense. Mr. Lantos and 
I had a brief discussion about the next tranche of money, the 
IMF funds, for part of the $43 billion assistance, to 
Indonesia. Do any of you at this panel believe that such aid is 
inappropriate to hold in abeyance the next payment?
    Ms. Jones. No, I don't believe it is inappropriate at all, 
but I also believe that the relatively small amount of American 
aid could be vastly enhanced in its power if it were joined 
with Japanese economic assistance, and I believe the U.S. has 
some leverage there.
    Mr. Bereuter. Yes.
    Dr. Emmerson. Could I also agree? I don't think it is 
inappropriate to withhold or delay that tranche.
    Mr. Bereuter. You do?
    Dr. Emmerson. I do not think it is inappropriate. Actually, 
I should say it is appropriate.
    Mr. Wolfowitz. I believe it is also not only appropriate 
but essential. There is obviously a caveat, as Don Emmerson 
said earlier, that one has to be careful about creating an even 
more serious economic crisis in Indonesia from which even more 
innocent people suffer, but I think clearly withholding the 
next tranche of IMF lending I think is essential.
    Mr. Bereuter. The markets are indicating the possibility we 
may withold aid along with all the other national and 
international actions is having an impact on Indonesia's 
currency. In some ways, witholding aid may have a greater 
impact than anything else we do in a direct sense. I think that 
is an appropriate kind of leverage.
    I think it is particularly important that United Nations 
forces not be forced out. I am not unsympathetic or unconcerned 
about the danger such forces face, but I think we need to do 
whatever we can to continue their presence and activities of 
U.N. officials at this point.
    Mr. Wolfowitz. Mr. Chairman, if I just might say, the best 
thing that has happened for strengthening the Indonesian 
currency in the last 12 months was the successful democratic 
election on June 7. The thing that has done the most damage has 
been the atrocity in East Timor in the last week.
    Mr. Bereuter. I think that is absolutely right. Bearing in 
mind what I was saying about the United Nations, is there 
anyone among you who has some ideas about U.N. action against 
Indonesian membership? Do we have any precedent for a deferral 
or partial abatement of the privileges of membership in the 
United Nations since they are acting against a United Nations 
force at this point? Can we suspend membership in the United 
Nations of a member or suspend any of the rights and privileges 
of a member?
    Mr. Wolfowitz. Well, certainly we can't.
    Mr. Bereuter. Not we, but ``we'' meaning a part of the 
international community.
    Mr. Wolfowitz. I don't think the U.N. would do it. I think 
there is this terrible danger that we end up taking actions 
that appear to be so anti-Indonesian that people in Indonesia, 
who are horrified by what their own military have done, begin 
to be more horrified of what the world is doing to Indonesia. I 
think that is the kind of symbolism that probably is harmful.
    Ms. Jones. I also think that because we want UNAMET to stay 
there, and because we want to rely on Security Council approval 
for any peacekeeping force that was sent in, we can't toy with 
Indonesia's membership there. But I think there is a lot we can 
do on the bilateral, multilateral side aside from that.
    Mr. Bereuter. Do all of you agree that stopping bilateral 
assistance at this point except for humanitarian purposes is 
appropriate?
    Ms. Jones. Yes.
    Mr. Bereuter. Does anyone disagree?
    Dr. Emmerson. In my statement I commented that in the case 
of the United States, we provide assistance to Indonesia of a 
variety of kinds. One kind of assistance, for example, is to 
strengthen the process of democratization. I don't think that 
should be cut.
    Mr. Bereuter. And part of that, of course, does go to the 
government?
    Dr. Emmerson. Right. But a lot of it goes to 
nongovernmental organizations.
    Mr. Bereuter. You make that distinction. I take that point.
    Ambassador?
    Mr. Wolfowitz. If I could backtrack a minute on your 
question about the U.N. I think a better way to try to use 
sentiment in the United Nations would be to have the kinds of 
resolutions from the United Nations, and actually if possible, 
I don't know if it is possible, even more from the General 
Assembly than the Security Council that will convince 
Indonesians that this is the whole world that is concerned and 
not just the United States and Australia. I think the U.N. 
really could be a very important vehicle of informing public 
opinion in Indonesia if it is used properly.
    Dr. Emmerson. I am skeptical on this one. I would like to 
remind the Committee that the United Nations presence in East 
Timor was going to go through three phases. Phase Two was going 
to begin after the popular consultation, and Phase Three was 
going to begin after the meeting of the Assembly coming up 
presumably in October or November. I don't think that just for 
the sake of using the United Nations as a club with which to 
beat Indonesia, we should abandon the prospect that a UNAMET 
presence in East Timor could perhaps continue to pursue a plan 
that would help to implement the vote on the 30th of August.
    Mr. Bereuter. As I said, I certainly want to do everything 
possible to keep the U.N. presence there and to continue their 
activities, being pursued in conjunction with the original 
plan.
    We may have a time for another turn, but I turn to my 
colleagues now. The gentleman from American Samoa is 
recognized.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    I do want to thank the Members of the panel for their 
comprehensive statements. I have been listening to the comments 
that have been made, and I am sure that some of you have 
probably also heard what Secretary Pickering had said and some 
of the concerns expressed by both Senators and Members of this 
Chamber. We seem to have taken a blind eye in terms of the 
history how this whole thing came about. The East Timor crisis 
did not just happen yesterday. This was a situation, a crisis 
that has been brewing for the past 20 years. Over 200,000 East 
Timorese have been tortured, murdered, killed by the military. 
The East Timorese did not ask the Indonesians to come and make 
them a democracy. The East Timorese military simply took over 
militarily. It was not a peaceful annexation.
    Please forgive me if I am wrong on the history. This was an 
outright unilateral move by the Indonesian military 20 years 
ago to take over East Timor when Portugal decided to get rid of 
its colony. The same thing is also true with West Papua and New 
Guinea. I think we are looking at the situation as if all of a 
sudden this is a crisis, and I am a little interested in the 
fact that our Ambassador, Secretary Pickering, said the 
Administration has been preparing for the options of what was 
to come about as a result now that we are in with the militia 
and the military supporting this. As a matter of fact, it seems 
to me that we really are just--and I have a very famous 
expression in the Hawaiian language called ``waha.'' it means 
just a bunch of hot air with no real substance in terms of what 
we really have to do, as a point of fact, substantively to 
handle this situation.
    I noticed also that there was some mentioning of the fact 
that this place is so isolated all the way on the other side of 
the world that really the United States should have no real 
national interest. My understanding of elementary history as I 
took it in elementary school is that some prince in Serbia's 
assassination started the whole World War I. That was as 
isolated a case as I could remember, how World War I started.
    So East Timor now comes in to bear, and as a matter of 
history we have not had a very good relationship with the Asia 
Pacific region when it comes to military.
    I would just like to ask the question, China has recently 
proposed to the ASEAN member nations that it would be nice if 
we could also set up a regional security organization similar 
to what the Europeans have set up. They call it NATO. Would you 
support this kind of a thing? Because now--and understanding 
that the United States will not unilaterally move in to stop 
this atrocity--do we prefer the People's Republic of China Army 
go in to prevent this atrocity from happening? What is your 
thinking on this?
    Ms. Jones. I could just say that I don't think there is any 
prospect whatsoever that even if a regional security 
organization were formed in Asia that any member would have any 
desire to go in and resolve in East Timor or in Irian Jaya or 
in Aceh at all, and the human rights problems that we have in 
all of those places are not going to be solved by such an 
organization.
    Dr. Emmerson. My comment would be this. I think you put 
your finger on a sore spot. Unlike Europe, where you have NATO 
and other networks of security cooperation, the situation in 
East Asia is not as promising. There is the ASEAN Regional 
Forum (ARF), as I am sure you are aware, but it is a very young 
organization and has yet to prove itself.
    I do feel that the United States must come to terms, if you 
will, with this dilemma. On the one hand we want to reserve the 
right to act unilaterally. We are nationalists, too, in our own 
way. At the same time we are interested in getting others to 
contribute their share, share the responsibility. That is in a 
multilateral setting. I think there is ambiguity in U.S. 
policy. To what extent do we support, let's say, the ARF as 
opposed to reserving our right to intervene? I think there has 
to be a combination of the two.
    Mr. Faleomavaega. I agree with you, Dr. Emmerson.
    Mr. Wolfowitz. I guess I would just say, Congressman, quite 
a few multilateral organizations are designed for inaction, not 
for action. If you had one in which China played the leading 
role, I don't believe if it acted, it would act on behalf of 
human rights. The one country in the region that has taken a 
leadership role is Australia on this. Australia is an ally that 
deserves American support. I believe in the right 
circumstances, that is to say if there were a consensus that 
included Indonesia to bring in an international force, other 
countries in the region have indicated a willingness to 
participate. I don't know if I like the term ``coalition of the 
willing,'' but I don't have a better one. I think that is the 
best way to try to put something together. I think it is 
absolutely right that other countries should be encouraged to 
lead, and when other countries are willing to lead, the United 
States should follow, not feel we have to lead all the time.
    Mr. Faleomavaega. Mr. Chairman, if I may, just for 30 
seconds more, I would like to share with Members of the panel 
and the Subcommittee an article written by Mr. Walter Shapiro 
that appeared in the Washington Times, I believe yesterday. It 
says, quoting his comments, ``Having blessed the independence 
referendum, that is, our Nation, the United States, it would be 
a cynical betrayal of East Timorese aspirations for freedom for 
America to now turn its back on Indonesian-sponsored brutality. 
Adopting an ostrich-like isolationist policy in East Timor 
would run counter to every moral imperative that buttresses our 
foreign policy.''
    Thank you, Mr. Chairman.
    Mr. Bereuter. If the gentleman would yield on his 
nonexistent time, in light of the comments we heard about anti-
West and anti-U.N. sentiment, it would seem to me that if we 
had any kind of multilateral force, it ought to involve 
Southeast Asian countries and ASEAN countries, in particular, 
as a part of that force so that it is not strictly an Anglo/
Australian/American or some such force.
    Mr. Faleomavaega. Would the Chairman yield?
    Mr. Bereuter. I would yield.
    Mr. Faleomavaega. I would strongly advocate that we ought 
to organize a similar NATO-type organization in the Asia 
Pacific region with the United States as a full participant. I 
think it is good and in our national interest.
    Mr. Bereuter. I am pleased to yield now 5 minutes to the 
gentleman from Florida Mr. Hastings.
    Mr. Hastings. Thank you very much, Mr. Chairman. I came 
back to learn, and learn indeed I did. I respect so very much 
the Chair and Mr. Faleomavaega, who I believe have few peers 
that could rival them in their understanding of the dynamics 
that are ongoing there. Our three panelists, the portions of 
Dean Wolfowitz' comments that I did hear and the other two, 
were most enlightening and leave me with as many questions as I 
believe they afforded or anyone else have afforded us answers 
today.
    Mr. Chairman, I come to this as perhaps the least 
knowledgeable of all the remaining persons that are discussing 
this issue, but I also come with a fair grip on street life, 
and that is something that I think does not rise always when we 
are discussing a matter. Ms. Jones' propositions that she put 
forward I am in thorough agreement with, as I am with the 
statements of everyone else. What bothers me is Senators--and 
all of us give forth with ruminations about cutting off money, 
and rightly we should, but cutting off the money isn't going to 
cutoff the killing. Therein lies the dilemma that we have. 
Thugs don't respect but one thing, and that is force. The 
people that are conducting themselves in a thuggish manner, in 
the militia especially and perhaps more than likely with the 
complicity of the military, they don't care about the 
International Monetary Fund or the United Nations peacekeeping. 
That isn't what is on their mind until they see something hit 
the ground.
    Thus, I raise the proposition that if anything is going to 
solve this problem, it is going to be an international 
peacekeeping force, period, and that has to be done with or 
without, at some point, the Indonesian government's consent. 
Ideally we should move diplomatically, as we are. Ideally we 
should legislate along the lines that we as policymakers can, 
and the Executive Bbranch should do everything that it can to 
be persuasive. But how can you persuade, for example, Ms. 
Jones, if Habibie and Wiranto would be committing suicide if 
they agreed to let the international community come in as you 
proposition, and I agree with, then you don't expect that they 
are ever going to agree. And if they are the controlling agents 
at this point to a relative degree, then I don't know how we 
communicate with all of these other people, Dean, for example, 
that we should be communicating with.
    I do believe that we should separate the people of 
Indonesia from military persons who act in complicity with 
thugs and make that very clear, but it is a difficult thing. 
But understanding what genocide is not difficult.
    Now, I don't know whether genocide has occurred here, but I 
am willing to go on record as saying that before long we will 
begin using that term. It is a term of art that is given to us 
under the United Nations treaty that allows for the 
international community to act. I don't understand why when 
people are being killed indiscriminately, that we cannot, under 
that aegis, act.
    I don't know how you modify genocide. I have read that 
treaty over and over again. It doesn't say little genocide. It 
doesn't say big genocide. It doesn't say pretty genocide. It 
doesn't say ugly genocide. It defines the terms that I believe 
these actions fall under.
    And so I ask you all, I beg all of my colleagues to begin 
paying attention to that. Otherwise, all of the executive 
actions, all of the actions of APEC in New Zealand, all of 
Clinton's using the bully pulpit, all of our resolutions that 
we pass, are not going to stop the killing until we put some 
people on the ground to stop the killing. I don't know whether 
that should be United Nations or states' troops, but I do know 
we are going to have to undertake to do something and if you 
wake me up at 4 o'clock in the morning, I will tell you how I 
really feel.
    Mr. Bereuter. I thank the gentleman. I do have one point I 
would like to ask in a second round here. Dr. Emmerson, in 
pointing to his five possible explanations, and No. 3 as I have 
marked it down, said responsibility for the recent turmor must 
be clearly assigned to Indonesia military. I recognize what you 
said, but I am going to ask a question, nevertheless, that 
seems to fly partially in the face of that.
    It is my understanding that there was a concerted effort to 
recruit Timorese--East and West Timorese--to the military units 
that were involved and assigned in that region as a positive 
feature for dealing with the difficulties there. In the 
military forces on the island of Timor, it is my understanding 
you have a disproportionate number of Timorese as compared to 
the overall military. I guess my question--and right now it 
would seem to me that might have been a counterproductive step 
at this stage--is as follows:
    Is there an element in the Indonesian military, in your 
judgment, that could effectively be deployed by Wiranto or 
President Habibie that could be expected to implement an end to 
the terrorism that is prevailing there? Is there an element 
that can be rapidly deployed within the military--Is there a 
force within it that can be counted upon to do the job that the 
current forces are not doing?
    Dr. Emmerson. My answer is yes, there is.
    Mr. Bereuter. What is that?
    Dr. Emmerson. Kostrad, to cite just one example. The 
Indonesian military is a broad and manifold organization. It 
has many units with a variety of functions. Kostrad would be 
one possibility--the Army Strategic Reserve, which has the 
capacity of being airlifted to various parts of the 
Archipelago.
    I think you are quite right to point out the issue of 
recruitment from local sources. If you had a unit that came in 
strictly under top command with instructions to arrest the 
militia and end the killing, and if that unit were recruited 
from somewhere else in the archipelago and did not include 
Timorese with an interest in maintaining ties with the militias 
and with Indonesia, or Indonesian officers that own land in 
East Timor, or who have married Timorese wives--if you have a 
unit, if you will, that comes from outside of that context, 
yes, the answer is quite clearly yes, with firm Indonesians to 
do so, it could in fact end the killing.
    Ms. Jones. I would like to differ a bit because I think out 
of the 15,000 people that I mentioned, the troops in East 
Timor, there are 2,000 East Timorese. There are only two 
battalions of East Timorese. All the rest are non-East 
Timorese. So that it is not just a question of people being 
caught up in the emotion.
    Second, there are Kostrad battalions on the ground now. It 
is precisely those Kostrad battalions that let this U.N. convoy 
go through and be attacked by the militias.
    Mr. Bereuter. I don't want to confuse East Timorese with 
Timorese. I am talking about Timorese in part now being a 
problem, whether they are from East Timor or West Timor. Could 
you give me statistics that relate to the Timorese as opposed 
to just the East Timorese, because the East Timorese recruits 
into the army are not the whole problem, if they are a problem.
    Ms. Jones. That is true, but I don't think the West 
Timorese recruited are a significant portion of the other 
battalions.
    Mr. Wolfowitz. There may be a problem in having Timorese in 
the forces, but the real problem is the orders that they are 
all getting. Until they get orders to do anything, nothing will 
happen. You asked if they got orders to do something, would 
Timorese carry them out.
    Mr. Bereuter. No, I really asked is there a unit within the 
military that would respond to orders.
    Mr. Wolfowitz. I think there are. I think there are many. I 
think there are two different kinds of orders. I think it would 
be much easier to find many units who would respond to orders 
if they got them to protect UNAMET, for example, and to protect 
civilians. The hardest part will be getting units to actually 
go after militias and arrest them, because then I think you 
begin to find people saying more these are the people we 
created. These were our allies and now we are supposed to put 
them in jail. That is why I think the Indonesians ought to see 
the offer of international force as a great blessing to 
Indonesia. The sooner they hand over the security 
responsibilities to someone else, the better off the Indonesian 
military will be.
    Mr. Bereuter. I understand your point. I am still looking 
for a specific alternative if in fact they do not go. Dr. 
Emmerson gave me a very specific one.
    Dr. Emmerson. Let me also be specific in responding to 
Sidney. I couldn't disagree more. If Sidney is correct, then 
the Indonesian military is simply incapable of ending the 
violence even if Wiranto wanted to. That is absurd. I was in 
Ambon in June for the Indonesian elections, monitoring that 
event. It was Kostrad troops that were able to separate Muslims 
and Christians that previously had been killing each other. I 
don't believe for a moment that the entire Indonesian military 
is so corrupted by Timor that they are incapable of following 
authority a true instructions to end the killing. That is not 
the case.
    Ms. Jones. What I was saying is that you can't just take a 
unit and assume that because it is Kostrad and because it is 
well trained and specially trained and elite, that therefore 
that background gives it somehow a greater ability than other 
units if, in fact, you are not getting the appropriate orders 
from the top. I do think if you did get orders from Wiranto, 
everything would be very different.
    Mr. Bereuter. I understand. There are two elements. One is 
the commitment and the orders that follow it. The second one is 
a force that will implement it. Both can be and is currently a 
problem.
    Thank you. The gentleman from American Samoa for a round.
    Mr. Faleomavaega. I have about 501 other questions I want 
to raise. I know we can continue the dialogue for the next five 
hours very--quite easily; but I do want to commend you for 
calling this hearing which I think has been very purposeful. I 
sincerely hope that not only the Members of the Committee but 
the American public will have gotten a little more education 
about where this place is and the importance of this crisis and 
what impact it will have not only for our own national 
interests but especially for this region of the world.
    I also want to commend our good friends here for their very 
fine statements and their participation in the hearing. I want 
to thank you again.
    Mr. Bereuter. Thank you. The gentleman from Florida have 
another statement?
    Mr. Hastings. I don't have a question. I just have a 
request of Ms. Jones if she would be kind enough to provide me 
a copy of your paper publication in the Australian journal, 
that is in your biography, ``Regional Institutions for 
Protecting Human Rights,'' I would just like to read it.
    Ms. Jones. I will.
    Mr. Hastings. Thank you, Mr. Chairman, for holding this 
hearing. Thank you all so very much for your enlightening 
testimony.
    Mr. Bereuter. I join my colleagues in expressing our 
appreciation to the panel for your exceptional assistance here 
today. We appreciate the fact you have taken so much of your 
day to do it. Thank you very much.
    The Subcommittees are adjourned.
    [Whereupon, at 5:25 p.m., the Subcommittees were 
adjourned.]
      
=======================================================================

                            A P P E N D I X

                           September 9, 1999

=======================================================================

    [GRAPHIC] [TIFF OMITTED] T1319.001
    
    [GRAPHIC] [TIFF OMITTED] T1319.002
    
    [GRAPHIC] [TIFF OMITTED] T1319.003
    
    [GRAPHIC] [TIFF OMITTED] T1319.004
    
    [GRAPHIC] [TIFF OMITTED] T1319.005
    
    [GRAPHIC] [TIFF OMITTED] T1319.006
    
    [GRAPHIC] [TIFF OMITTED] T1319.007
    
    [GRAPHIC] [TIFF OMITTED] T1319.008
    
    [GRAPHIC] [TIFF OMITTED] T1319.009
    
    [GRAPHIC] [TIFF OMITTED] T1319.010
    
    [GRAPHIC] [TIFF OMITTED] T1319.011
    
    [GRAPHIC] [TIFF OMITTED] T1319.012
    
    [GRAPHIC] [TIFF OMITTED] T1319.013
    
    [GRAPHIC] [TIFF OMITTED] T1319.014
    
    [GRAPHIC] [TIFF OMITTED] T1319.015
    
    [GRAPHIC] [TIFF OMITTED] T1319.016
    
    [GRAPHIC] [TIFF OMITTED] T1319.017
    
    [GRAPHIC] [TIFF OMITTED] T1319.018
    
    [GRAPHIC] [TIFF OMITTED] T1319.019
    
    [GRAPHIC] [TIFF OMITTED] T1319.020
    
    [GRAPHIC] [TIFF OMITTED] T1319.021
    
    [GRAPHIC] [TIFF OMITTED] T1319.022
    
    [GRAPHIC] [TIFF OMITTED] T1319.023
    
    [GRAPHIC] [TIFF OMITTED] T1319.024
    
    [GRAPHIC] [TIFF OMITTED] T1319.025
    
    [GRAPHIC] [TIFF OMITTED] T1319.027
    
    [GRAPHIC] [TIFF OMITTED] T1319.028
    
    [GRAPHIC] [TIFF OMITTED] T1319.026
    
    [GRAPHIC] [TIFF OMITTED] T1319.029
    
    [GRAPHIC] [TIFF OMITTED] T1319.030
    
    [GRAPHIC] [TIFF OMITTED] T1319.031
    
    [GRAPHIC] [TIFF OMITTED] T1319.032
    

</pre></body></html>
